<html>
<title> - ADEQUACY OF LABOR LAW ENFORCEMENT IN NEW ORLEANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
            ADEQUACY OF LABOR LAW ENFORCEMENT IN NEW ORLEANS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 26, 2007

                               __________

                           Serial No. 110-191

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                  U.S. GOVERNMENT PRINTING OFFICE
51-702                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
TOM LANTOS, California               DARRELL E. ISSA, California
ELIJAH E. CUMMINGS, Maryland         DAN BURTON, Indiana
DIANE E. WATSON, California          CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER S. MURPHY, Connecticut   JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
BRIAN HIGGINS, New York              BRIAN P. BILBRAY, California
BRUCE L. BRALEY, Iowa
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 26, 2007....................................     1
Statement of:
    DeCamp, Paul, Administrator, Wage and Hour Division, 
      Employment Standards Administration, Department of Labor, 
      accompanied by William L. Carlson, Ph.D., Administrator, 
      Office of Foreign Labor Certification, Employment and 
      Training Administration, U.S. Department of Labor; and 
      Alexander J. Passantino, Deputy Administrator, Wage and 
      Hour Division, Employment Standards Administration, U.S. 
      Department of Labor........................................   139
    Steele, Jeffrey, former employee of the Army Corps of 
      Engineers; Ted Smukler, director of public policy, 
      Immigrant Worker Justice; Jennifer Rosenbaum, staff 
      attorney, Immigrant Justice Project, Southern Poverty Law 
      Center; and Saket Soni and Jacob Horowitz, New Orleans 
      Workers Center for Racial Justice..........................    17
        Rosenbaum, Jennifer......................................    35
        Soni, Saket and Jacob Horowitz...........................    50
        Smukler, Ted.............................................    28
        Steele, Jeffrey..........................................    17
    Washington, Tracie, president and CEO, Louisiana Justice 
      Institute; and Catherine Ruckelshaus, litigation director, 
      National Employment Law Project............................   208
        Ruckelshaus, Catherine...................................   216
        Washington, Tracie.......................................   208
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   243
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    13
    DeCamp, Paul, Administrator, Wage and Hour Division, 
      Employment Standards Administration, Department of Labor, 
      prepared statement of......................................   142
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................    97
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Article dated February 15, 2007..........................   175
        E-mail dated February 22, 2007...........................   164
        E-mail dated June 18, 2007...............................   154
        Letter dated June 19, 2007...............................   168
        List of H1-B employers who have been debarred............   202
        Memo dated June 21, 2007.................................   191
        Prepared statement of....................................     5
    Rosenbaum, Jennifer, staff attorney, Immigrant Justice 
      Project, Southern Poverty Law Center:
        Letter dated May 1, 2006.................................    63
        Prepared statement of....................................    38
    Ruckelshaus, Catherine, litigation director, National 
      Employment Law Project, prepared statement of..............   218
    Smukler, Ted, director of public policy, Immigrant Worker 
      Justice, prepared statement of.............................    30
    Soni, Saket, New Orleans Workers Center for Racial Justice, 
      prepared statement of......................................    53
    Steele, Jeffrey, former employee of the Army Corps of 
      Engineers, prepared statement of...........................    20
    Washington, Tracie, president and CEO, Louisiana Justice 
      Institute, prepared statement of...........................   211


            ADEQUACY OF LABOR LAW ENFORCEMENT IN NEW ORLEANS

                              ----------                              


                         TUESDAY, JUNE 26, 2007

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m. in 
room 2147, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Watson, Davis of 
Illinois, Tierney, Issa, Mica, Cannon, and Bilbray.
    Staff present: Jaron R. Bourke, staff director; Noura 
Erakat, counsel; Jean Gosa, clerk; Evan Schlom, intern; Natalie 
Laber, press secretary, Office of Congressman Dennis J. 
Kucinich; Kristina Husar, minority professional staff member; 
John Cuaderes and Larry Brady, minority senior investigators 
and policy advisors; and Benjamin Chance, minority clerk.
    Mr. Kucinich. The hearing will come to order.
    Thank you very much for your attendance here today. This is 
a meeting of the Domestic Policy Subcommittee of the Oversight 
and Government Reform Committee.
    Today's hearing deals with the adequacy of labor law 
enforcement in New Orleans. We have an extensive witness list, 
and in the interest of moving this hearing forward I am going 
to make my opening statement. The ranking member, my friend 
from California, Mr. Issa, will be joining us shortly. He just 
returned from a trip to Lebanon. With his permission 
communicated through his staff, we are going to start. He will 
be joining us.
    We are also joined by my friend and colleague from 
Illinois, the Honorable Danny Davis.
    I want to welcome all of the guests and people that are 
testifying here today. This is the third hearing in a series of 
hearings on the state of urban America. The series intends to 
take a closer look at American cities, their progress, their 
problems, and their future. Today's hearing will take a closer 
look at the adequacy of labor law enforcement in New Orleans in 
the aftermath of Hurricanes Katrina and Rita. Our previous 
hearings looked at taxpayer financed debt for the 
reconstruction of sports stadiums, as well as the sub-prime 
mortgage industry, the problem with foreclosure, the payday 
lending industry, and the enforcement of the Community 
Reinvestment Act.
    Today we will examine the adequacy of labor law enforcement 
in New Orleans post-Katrina. On August 29, 2005, Hurricane 
Katrina broke levies and flooded New Orleans with more than 100 
billion gallons of water. The flooding killed at least 1,400 
people, half of whom were from New Orleans, and left hundreds 
of thousands of others homeless.
    The no-bid, cost-plus contracts that characterized the 
reconstruction have received some scrutiny. Companies such as 
AshBritt, Inc.; Bechtel Group, Inc.; Ceres Environmental; Fluor 
Corp.; and Kellogg Brown & Root, a subsidiary of Halliburton, 
amongst many others, received billions of dollars for 
rebuilding New Orleans in much the same process as was followed 
in Iraq, and many of the same players, as well. But what has 
not yet received sufficient scrutiny and is the focus of 
today's hearing is this: in addition to getting cost-plus and 
no-bid contracts, the corporations received Federal contracts 
and subcontracts that also benefited from the suspension of 
many labor laws and the non-enforcement of others.
    In the aftermath of the hurricanes, President Bush issued a 
number of Executive orders to suspend labor laws and 
documentation requirements. These included the suspension of 
the Davis-Bacon Act, the suspension of Affirmative Action 
requirements, the suspension of regular enforcement or 
Occupational, Safety, and Health Administration standards, and 
the suspension of documentation requirements by the Department 
of Homeland Security.
    The Department of Labor is the Federal cop in the workplace 
safety, wages, and hours beat. Where was Sheriff Labor during 
the early months of the reconstruction?
    Here is just one troubling statistic: the number of 
Department of Labor investigations in New Orleans decreased 
from 70 in the year before Katrina to 44 in the year after 
Katrina, a 37 percent decrease.
    In the meantime, the crimes of employers against workers 
stacked up. Matt Redd, a New Orleans real estate mogul, filed 
with the Department of Labor to sponsor guest workers from 
countries such as Mexico, but he apparently lied when he stated 
that these H2-B workers had jobs waiting for them. Rather, he 
was a human trafficker, and he rented those unfortunate migrant 
workers out to garbage collection companies and restaurants at 
an hourly wage. Our witness from the New Orleans Workers' 
Center for Racial Justice will share the story of their 
struggle on behalf of the guest workers to redress their 
grievances with Matt Redd, as well as their struggle to get the 
Department of Labor to do something about it.
    The stories of violations are abundant. Consider the story 
of Antonia, which has been documented by the Southern Poverty 
Law Center. There is a picture of Antonia there. Now, Antonia 
has been living in New Orleans for 4 years. She complained she 
was never paid for her work.
    She recounts, ``The company owners kept telling us we were 
going to receive our checks. First it was Monday, then it was 
going to be Wednesday. We would wait in a long line for our 
paychecks from 6 p.m. until midnight or 2 a.m., after working 
all day. When my turn arrived to get my check, I had already 
been working 2 weeks, and I was angry because I hadn't been 
paid. I had been working to make money in order to buy food. It 
was Christmas time. And after not being paid, I went to New 
York to visit my children. I had to go there without a cent. 
Now, 2 months later, I still haven't received a single check 
for that work.''
    Unfortunately, Antonia's story is not unique. Today our 
witness, Mr. Jeffrey Steele, has a very similar story to 
recount. Part of the problem seems to be that the Department of 
Labor was slow to adapt to the need and to respond to labor 
abuses against a new immigrant population. For instance, our 
investigation has revealed that the New Orleans District Office 
took 1 year and 4 months after the hurricanes to hire a new 
Spanish-speaking investigator, bringing the total capacity to 
two. Nearly 2 years later, the office has only 3 Spanish-
speaking investigators out of a total of 12 investigators. At 
least for workers from Guatemala and Mexico there is a chance 
of being helped, but for the workers who are coming from Brazil 
there is not a single Portuguese-speaking investigator on 
staff. Our witness from the Southern Poverty Law Center will 
tell us how this shortcoming has affected workers in New 
Orleans.
    Part of the problem seems to reside with the National 
Department of Labor office. After the hurricanes deprived 
hundreds of thousands of people of their homes, including most, 
if not all, of the staff and investigators of the New Orleans 
Department of Labor office, what supplemental support did the 
Washington office provide? Our inquiry reveals that Washington 
sent the first detailed employee to help for a period of 2 
weeks nearly 3 months after the hurricanes.
    Part of the problem seems to be the administration of the 
law. Guest workers who came to work in the United States on H2-
B visas are susceptible to other labor violations, as well, 
oftentimes after paying a fee for their visa, after paying for 
a plane ticket, as well as substantial fee to the labor broker 
who invited them to work in the United States. They arrive in 
the United States only to find there is no work for them. In 
many cases they are subjected to hostile or horrible living 
conditions, non-payment for overtime, and non-payment at all.
    In worst case these guest workers have their passports and 
visas confiscated by employers, rendering them virtual slaves 
at the hands of someone who has used legal means to import them 
into the United States.
    Now, the Department of Labor claims that it has little or 
no authority to act on behalf of H2-B visa holders. Unlike 
statutes protecting agricultural workers, or H2-A visa holders, 
no similar legislation exists to protect non-agricultural guest 
workers. The Department of Labor, which has the authority to 
grant or deny certificate for a foreign labor contract through 
its Office of Foreign Labor Certification, cannot do so much as 
deny certification for an employer who has been prosecuted for 
labor law violations. Instead, the Department of Homeland 
Security is granted complete authority over the enforcement of 
H2-B contract terms.
    Now, irrespective of the statutory limitations impeding 
Department of Labor advocacy on behalf of H2-B workers, the 
Department of Labor Wage and Hour Division still has the 
authority and the responsibility to prosecute employers for 
violations of the Federal Labor Standards Act and the Davis 
Bacon Act.
    The interplay of labor law suspensions, an influx of 
workers, huge contractors, and non-enforcement of labor law 
created an environment, according to some of our witnesses, of 
virtual lawlessness in New Orleans, an environment they have 
described to us as a wild, wild west.
    Today I hope we can discover why and how this occurred and, 
in hearing from the witnesses, perhaps develop a path toward 
addressing these issues for the benefit of the people in New 
Orleans.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T1702.001

[GRAPHIC] [TIFF OMITTED] T1702.002

[GRAPHIC] [TIFF OMITTED] T1702.003

[GRAPHIC] [TIFF OMITTED] T1702.004

[GRAPHIC] [TIFF OMITTED] T1702.005

[GRAPHIC] [TIFF OMITTED] T1702.006

[GRAPHIC] [TIFF OMITTED] T1702.007

    Mr. Kucinich. At this time the Chair recognizes Mr. Davis 
from Illinois.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. I 
will submit a statement for the record, but I just want to 
thank you for calling this hearing.
    None of us have ever experienced a tragedy as horrendous 
and severe as what has taken place in New Orleans, and I think 
we owe the world the opportunity to get as much as a look at 
what has taken place after, as we go through the process of 
rebuilding.
    I look forward to the witnesses and again thank you for 
calling the hearing. I will submit a statement for the record.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.008
    
    [GRAPHIC] [TIFF OMITTED] T1702.009
    
    [GRAPHIC] [TIFF OMITTED] T1702.010
    
    Mr. Miller. I appreciate it very much.
    The Chair welcomes to this hearing Mr. Tierney from 
Massachusetts. Thank you for being present.
    At this point I will make some introductions.
    I am going to ask the members of the panel first to rise 
and to raise your right hands.
    It is the policy of our subcommittee to swear in all 
witnesses before they testify.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that the witnesses 
answered in the affirmative. Thank you.
    I will introduce each speaker, and after the introduction I 
will ask you to give a brief statement of your testimony and to 
keep the summary under 5 minutes in duration. I want you to 
bear in mind that your complete written statement will be 
included in the hearing record.
    We are going to begin with Mr. Jacob Horowitz. Mr. Horowitz 
is an organizer at the New Orleans Workers Center for Racial 
Justice, an organization that advocates on behalf of workers in 
post-Katrina New Orleans. Mr. Horowitz' role at the Workers 
Center is as organizer with the Alliance of Guest Workers for 
Dignity, a membership lead organization that defends the rights 
of guest workers in the Gulf Coast.
    Originally from California with a background in union 
organizing, over the last year Mr. Horowitz has worked directly 
with hundreds of guest workers in post-Katrina New Orleans and 
across the Gulf Coast.
    I want to thank you very much for being here, and I would 
ask you to proceed.
    Mr. Soni. Thank you, Mr. Chairman. On behalf of Mr. 
Horowitz, I am speaking. My name is Saket Soni. I am the lead 
organizer for the New Orleans Workers Center for Racial 
Justice. We will be giving this testimony, and Jacob Horowitz 
will be joining me for the Q&A session.
    Mr. Kucinich. OK. What I will do, then, let me introduce 
you and then we will introduce everyone else and then we will 
begin with you. OK?
    Mr. Soni. Sure.
    Mr. Kucinich. Mr. Saket Soni is a co-founder and organizer 
for the New Orleans Workers Center for Racial Justice and a 
member of Advancement Project, the Workers Justice Center for 
Racial Equality and New Orleans Worker Justice Coalition, an 
independent community-based organization advocating for and 
organizing workers in post-Katrina New Orleans. Mr. Soni also 
works to bring together immigrant Latinos and displaced New 
Orleanians. He is co-author of ``And Injustice for All,'' a 
comprehensive documentation of the conditions for workers in 
post-Katrina New Orleans.
    Ms. Jennifer Rosenbaum is staff attorney for the Immigrant 
Justice Project for the Southern Poverty Law Center. Founded in 
1971, the Southern Poverty Law Center is a civil rights 
organization dedicated to advancing and protecting the rights 
of minorities, the poor, and victims of injustice and 
significant civil rights and social justice matters.
    The Center's Immigrant Justice Project represents low-
income immigrant workers in litigation across the southeast. 
Ms. Rosenbaum has coordinated the Center's post-Katrina 
advocacy on behalf of workers in New Orleans, including serving 
as lead counsel to migrant workers in several.
    Before joining the legal staff at the Immigrant Justice 
Project, Ms. Rosenbaum served as a scodant fellow at Texas Rio 
Grande Legal Aid representing farm workers in labor and 
employment litigation.
    Mr. Ted Smukler is the director of public policy at 
Interfaith Worker Justice. Interfaith Worker Justice uses faith 
values to organize, educate, and mobilize the religious 
community in the United States on issues and campaigns that 
will improve wages, benefits, and working conditions for 
workers, especially low-wage workers.
    Mr. Smukler is the lead author of several Interfaith Worker 
Justice publications, including ``Working on Faith: A Faithful 
Response to Worker Abuse in New Orleans,'' which details how 
the U.S. Department of Labor fails to enforce labor and 
employment law in New Orleans and the country at large, and 
another publication, ``For You Were Once a Stranger: 
Immigration in the U.S. through the Lens of Faith.''
    The final witness on the first panel, Mr. Jeffrey Steele. 
Mr. Steele has worked a number of jobs in a wide range of 
fields, from mortuary science to culinary arts. He has an 
environmental justice degree from Clark College in Atlanta, and 
it was there that he became active as a homeless advocate. He 
has worked with Atlanta's Hosea Williams Foundation, and was 
working at a men's shelter when he met displaced New Orleans 
residents after Hurricane Katrina hit.
    Mr. Steele moved to New Orleans to do debris cleanup for 
various contractors, where he was subject to safety hazards and 
wage theft. Mr. Steele filed charges with the Department of 
Labor in September 2006, but has not yet received any 
resolution in the form of back wages he is entitled to.
    I think what we will do, considering your case, Mr. Steele, 
let's start with you, and then we will go down the line.

STATEMENTS OF JEFFREY STEELE, FORMER EMPLOYEE OF THE ARMY CORPS 
OF ENGINEERS; TED SMUKLER, DIRECTOR OF PUBLIC POLICY, IMMIGRANT 
 WORKER JUSTICE; JENNIFER ROSENBAUM, STAFF ATTORNEY, IMMIGRANT 
 JUSTICE PROJECT, SOUTHERN POVERTY LAW CENTER; AND SAKET SONI 
   AND JACOB HOROWITZ, NEW ORLEANS WORKERS CENTER FOR RACIAL 
                            JUSTICE

                  STATEMENT OF JEFFREY STEELE

    Mr. Steele. My name is Jeffrey Steele. I currently live in 
Montgomery, AL. I lived in Atlanta for 27 years, and I worked 
at the Georgia World Congress Center in Georgia doing trade 
shows, and I was a part-time chef. I ran the men's shelter at 
night in Atlanta, GA, and I am a displaced evacuee from New 
Orleans, and I wanted to be part of history and I wanted to 
help rebuild New Orleans.
    Pastor Braddy had flyers all over Atlanta, Georgia, to 
recruit workers for New Orleans--free room, board, free food, 
pay $10 an hour. I left Atlanta October 16th and arrived 
October 17th. We started work after being on the road all night 
at 6 a.m. that morning.
    We worked all day for 12 hours with no food, no rest. We 
had to sleep in the same van that we came down in for several 
days.
    For the next year I worked for seven different 
subcontractors cleaning up in New Orleans: WorkForce 
Development, Phoenix Global, Copeland Construction, Express 
Staff, and JNE. They were connected to the Omni Pinnacle Waste 
Management ECC and the Army Corps of Engineers. I worked for 
U.S. Boat for Coastal Catering from September 2006, until this 
February, when I injured my hand on the job. They are still 
refusing to pay me Workers Compensation.
    The work in New Orleans was very hard. The days and nights 
were very long and hot. The work was dangerous because of the 
many hazards in the city and the flooding. We were given 1 hour 
of safety training. We had no health insurance, no workman's 
compensation or other benefits. We worked 16 to 18 hours for 7 
days a week. I lived with 40 to 60 men in a house. We were 
crammed into a small apartment or makeshift housing. We had 
very little to eat. Restaurants and grocery stores were closed, 
and even if they had been open we had no money to buy food. We 
had to eat relief handouts or MREs, or most of the time we were 
starving.
    None of the companies paid me correctly for the work I did. 
The pay was always very late. Every paycheck was short. There 
was no overtime paid. They even took deductions out for housing 
and food.
    For the first 3 months I received only $2,000 out of the 
$17,000 that I earned, no overtime. I tried to get back what 
was owed to me. I talked with the law clinic. They sent my case 
to the Department of Labor in 2006. I hadn't heard anything for 
a long period of time. I checked back. I was told I had to call 
the woman at DOL. I called her February 2007. She asked me if I 
had information about my previous companies. I didn't have any 
current numbers.
    In March the woman from DOL called back and asked if I had 
more information for her. I gave her what I had. She said she 
would file my claim.
    When I called back a month later to find out what was 
happening, she said when she find out she will let me know. I 
did not hear anything back from the DOL until Wednesday, June 
20th, when a woman supervisor called me and immediately began 
what I felt was an interrogation. She ended abruptly as she had 
started by saying she wanted me to call her when I had more 
information. She treated me as though I was the bad guy.
    I went to New Orleans to be part of history. I did the 
dirty and hard work that was needed, and yet I was taken 
advantage of by contractor after contractor who crammed workers 
into filthy living space, provided almost nothing to eat, 
offered practically no safety precautions, no equipment, and 
paid us late, and much less than the little than they had 
promised.
    It is not about me. It is not about Jeff. It is about the 
small men and women like me who don't have a voice. A country 
cannot clean up after a disaster without people like me. If 
this country allows companies to get away with treating hard-
working citizens like they are nothing, then shame on us. I 
worked hard all my life. I paid taxes. I am a U.S. citizen. I 
have been working since I was 9 years old. I have never been to 
jail. I have never asked the Government for nothing. If 
anything like Hurricane Katrina happens again in this country, 
I hope you never let anyone treat workers and the people they 
are trying to help the way that people was treated in New 
Orleans.
    Thank you.
    [The prepared statement of Mr. Steele follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.011
    
    [GRAPHIC] [TIFF OMITTED] T1702.012
    
    [GRAPHIC] [TIFF OMITTED] T1702.013
    
    [GRAPHIC] [TIFF OMITTED] T1702.014
    
    [GRAPHIC] [TIFF OMITTED] T1702.015
    
    [GRAPHIC] [TIFF OMITTED] T1702.016
    
    [GRAPHIC] [TIFF OMITTED] T1702.017
    
    [GRAPHIC] [TIFF OMITTED] T1702.018
    
    Mr. Davis of Illinois [presiding]. Thank you very much, Mr. 
Steele.
    Our next witness is Mr. Ted Smukler.

                    STATEMENT OF TED SMUKLER

    Mr. Smukler. Thank you very much, Mr. Davis, Chairman 
Kucinich, Congressman Davis, for the opportunity to testify 
about labor law enforcement in New Orleans and the decline in 
national capacity and the strategic will of the U.S. Department 
of Labor. I almost feel like changing my testimony after 
hearing Mr. Steele. It just makes me so angry.
    The statement is meant as an overview of issues raised in 
the Interfaith Worker Justice Report, ``Working on Faith: A 
Faithful Response to Worker Abuse in New Orleans.''
    Congressman Kucinich already read what Interfaith Worker 
Justice is. We also have 60 affiliates across the country and 
16 workers centers, religion labor affiliates.
    IWJ has always worked to maintain a partnership with the 
DOL, whose mission we strongly support. In fact, Paul DeCamp, 
who is going to testify today, recently addressed a hearing on 
the DOL and was warmly received by 350 delegates at IWJ's 
national conference.
    We are not in the business of attacking the DOL, so it was 
with great sadness that I witnessed open and flagrant abuse of 
workers' rights when I began visiting New Orleans and the 
Mississippi Gulf Coast after Katrina. Workers often received no 
pay at all.
    All of us watched the ravages of Hurricane Katrina with 
horror, but could not have imagined the ongoing abandonment of 
the people of New Orleans after Katrina's waters receded. Those 
who were abandoned during Katrina are still largely on their 
own, as new hands and backs have been imported to New Orleans 
to do the heavy lifting.
    IWJ conducted a survey of 218 people who had worked in New 
Orleans in the year following Katrina. Of workers, 47 percent 
reported not receiving all of the pay to which they were 
entitled; 55 percent received no overtime pay for hours above 
40; 58 percent were exposed to dangerous substances at work, 
such as mold, contaminated water, and asbestos. But of greatest 
concern, all the workers we surveyed were completely unaware 
that the DOL could help.
    IWJ has four major areas of concern today.
    The first Chairman Kucinich already spoke about, about all 
of the Executive orders from the Bush administration that set 
up a lawless economy, a lawless rebuilding process, the 
suspension of OSHA, suspension of prevailing wage, the 
allowance of employers to not check documents, and the 
suspension of Affirmative Action.
    Second, the DOL lacked the capacity and strategic direction 
to deal with this crisis. The number of completed wage and hour 
investigations in New Orleans dropped by 37 percent in the year 
following Katrina. It ought to have increased. This should be 
seen in the context of a national decline in DOL capacity since 
the 1970's.
    IWJ interns met Lorenzo at a Honduran eatery in the summer 
of 2006. The tissue on the corner of Lorenzo's eyes was red and 
swollen from installing fiberglass insulation with no 
protective gear. He was paid off in cash at the end of the 
first week, with no overtime paid for his week of 12-hour days.
    There are thousands of Lorenzo's and Mr. Steele's, but the 
DOL is not going out to find them where they are, at 
laundromats, at day labor pickup sites, coffee shops, work 
sites, congregations. Nonprofit advocates can find them. Where 
is the DOL?
    Our third major concern is that DOL resources are heavily 
invested in responding to complaints rather than carrying out 
targeted investigations of regions, industries, and employers 
that are known to violate the FLSA. Low-wage workers are highly 
unlikely to file complaints.
    The DOL, itself, is on record about the effectiveness of 
targeted investigations, but these proactive strategies take 
only 20 percent of wage and hour investigatory resources.
    We recognize that most businesses comply with wage and hour 
and OSHA requirements, but there are entire industries and 
employers and regions that rely on low-wage labor and steal the 
wages of workers in order to jack up profit margins. They are 
bottom feeders. The DOL knows who they are, but their practices 
are not stopped. This lowers standards for all U.S. workers.
    Fourth, the DOL fails to pursue all available penalties. 
Employers ordered to pay only back wages with no interest or 
other fines may be more encouraged than discouraged to practice 
wage theft, so DOL [sic] calls for this committee, if possible, 
to draft legislation that would increase wage and hour and OSHA 
investigators by at least a third; mandate that the DOL develop 
a public protocol, including unannounced visits targeting 
regions, industries, and employers with records of widespread 
abuses; provide funding for a partnership between the DOL and 
faith, labor, and community organizations in New Orleans and in 
six other cities with widespread wage theft; mandate that 
employers who violate wage and hour pay penalties and interest 
in addition to all back wages owed; and request a GAO 
investigation of DOL enforcement practices.
    Our religious traditions hold that workers must be treated 
fairly and with dignity, and that wage theft is a sin against a 
just God. In Deuteronomy 24 verse 14 God's law demands that you 
shall not withhold the wages of the poor and needy laborers.
    Thank you very much.
    [The prepared statement of Mr. Smukler follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.019
    
    [GRAPHIC] [TIFF OMITTED] T1702.020
    
    [GRAPHIC] [TIFF OMITTED] T1702.021
    
    [GRAPHIC] [TIFF OMITTED] T1702.022
    
    [GRAPHIC] [TIFF OMITTED] T1702.023
    
    Mr. Kucinich [presiding]. I thank the gentleman.
    Ms. Rosenbaum.

                STATEMENT OF JENNIFER ROSENBAUM

    Ms. Rosenbaum. Thank you, Mr. Chairman and members of the 
committee.
    I want to thank you for not forgetting about this issue 
almost 2 years after Hurricane Katrina. I can testify that Mr. 
Steele has not forgotten, Antonia has not forgotten, and that 
thousands of other workers who remain unpaid for their hard 
work rebuilding New Orleans and the Gulf Coast have not 
forgotten, nor have the advocates at this table, whose 
organizations have hired staff, have worked around the clock, 
have increased their language capacity, and have done the other 
work necessary to try to recover the wages, to recover 
liquidated damages, and to change the practices of the 
significant contractors in the region.
    In our opinion, the Department of Labor has had an 
inadequate response to the disproportionate scope of the 
disaster in New Orleans. I think everyone here is familiar. It 
was well reported on the television and in the newspapers the 
epic wage theft that was going on. While low-wage workers and 
their families always suffer when they are not paid or 
underpaid, particularly in New Orleans the suffering was acute. 
Because of the destruction of large parts of the city, the 
regular safety net works that might be in place in other places 
when workers go unpaid did not exist.
    As Mr. Steele has testified, workers were relying on their 
employers for housing and food, and when they went unpaid they 
faced retaliation and termination for complaining about not 
being paid in compliance with Federal law. They not only risked 
continued nonpayment; they risked eviction and hunger and being 
thrown out onto the streets.
    Where was the Department of Labor Wage and Hour Division as 
all this was going on? As Mr. Smukler has testified, workers 
certainly didn't know. I mean, that has been our experience in 
communicating with over 1,000 workers in our advocacy, 
education, and litigation efforts after Hurricane Katrina.
    We know some things that they didn't do. They didn't 
immediately after the hurricane begin distributing contract 
information and educational materials to workers where they 
could be located. Workers repeatedly told us that they knew 
that they were being paid illegally and they didn't know where 
to turn.
    The Department of Labor failed to make staff available at a 
time when workers could complain. When people were working 80 
to 100 hours a week, it was oftentimes impossible to call the 
Department of Labor during business hours. And the Department 
failed to have a plan to communicate with workers after hours, 
on the weekends. They also failed to have language access to 
communicate with those workers in the language that they speak.
    They failed to accept and record adequate complaints. We 
have report after report of workers calling the Department and 
being cursorily dismissed without a more than 5-minute 
telephone investigation into the worker's complaint. As Mr. 
Steele has testified, workers, themselves, are not under the 
obligation to have complete pay records or complete contact 
information on their employers. As the Supreme Court has said, 
when employers fail to meet their obligations to provide 
records of people's hours worked and wages owed, then the 
worker can reasonably testify to what has happened.
    As we also know, the contracting schemes are complex, 
obviously requiring a more than 5-minute investigation into 
whether an employer, for instance, is covered by the Fair Labor 
Standards Act.
    The subcommittee, therefore, really faces a challenge in 
accessing the information that will be presented by the 
Department of Labor, because many, perhaps the majority of 
complaints by workers were never even recorded.
    The Department of Labor's continued inaccessibility to 
migrant workers repeatedly hindered investigations of the 
complaints that were made. For instance, they didn't 
communicate to workers during the investigations and at times 
during the settlement process, and even when settlement 
proceeds were received they did not communicate with the 
workers about how to receive those proceeds.
    As Mr. Steele has testified, many other workers have told 
us they didn't know what was going on in the investigations, 
they felt that the Department of Labor was hostile, and in some 
cases workers felt like the Department of Labor was an agent of 
the employer and therefore did not continue to help the 
investigation.
    We had a worker report that his investigation was initially 
dismissed for lack of records when he actually had records, 
because he understood the Department of Labor investigator to 
actually be an agent of the employer and, fearing retaliation, 
refused to turn over those records. It wasn't until we were 
able to intervene and explain the investigative context and get 
those records that the investigation was able to be reopened.
    The Department of Labor also failed to prioritize, in our 
opinion, the cases that would have made the biggest difference 
on limited resources. They failed to bring cases on behalf of 
groups of workers--in fact, groups of subcontracted workers for 
the same general contractor--and they failed to investigate the 
general contractors that in many cases were jointly liable for 
the unpaid wages.
    We have two Fair Labor Standards collective action cases 
that have been settled against general contractors and 
subcontractors together, and we believe that is an important 
step in terms of making a structural difference in the way 
workers are being treated in New Orleans and on the Gulf Coast.
    Finally, as I said before, the Department of Labor has at 
times even failed to investigate and ensure that workers 
receive the checks that were settled on their behalf. We have 
been communicating with workers who almost a year after a 
settlement check was obtained by the Department of Labor have 
still been unable to physically possess that check and those 
unpaid wages. The Department of Labor has sent those checks to 
the wrong offices in States where they don't live, has forced 
them to communicate with Department of Labor staff who don't 
speak the same language as the workers speak, and has otherwise 
set up obstacles to actually receiving those unpaid wages, even 
when they have been recovered from the employer.
    For all those reasons, we have included recommendations in 
our report, and we hope that the committee will consider how to 
intervene in this matter further. It is important to recover 
unpaid wages for people that are still waiting to be paid for 
doing this work. It is important to change the nature of the 
employment relationships that continue to happen in New Orleans 
and on the Gulf Coast. And it is important to ensure that the 
lesson from migrant workers in New Orleans is not that Federal 
labor law doesn't apply to you. Right now that is the lesson, 
and that is a lesson that is being carried back across the 
country as migrant workers return to the States across the 
United States where they came from.
    Thank you.
    [The prepared statement of Ms. Rosenbaum follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.024
    
    [GRAPHIC] [TIFF OMITTED] T1702.025
    
    [GRAPHIC] [TIFF OMITTED] T1702.026
    
    [GRAPHIC] [TIFF OMITTED] T1702.027
    
    [GRAPHIC] [TIFF OMITTED] T1702.028
    
    [GRAPHIC] [TIFF OMITTED] T1702.029
    
    [GRAPHIC] [TIFF OMITTED] T1702.030
    
    [GRAPHIC] [TIFF OMITTED] T1702.031
    
    [GRAPHIC] [TIFF OMITTED] T1702.032
    
    [GRAPHIC] [TIFF OMITTED] T1702.033
    
    [GRAPHIC] [TIFF OMITTED] T1702.034
    
    [GRAPHIC] [TIFF OMITTED] T1702.035
    
    Mr. Kucinich. Thank you very much.
    I want to repeat that your extensive report that you filed 
with this committee will be included in the record of this 
hearing, and, as with Mr. Smukler and the others who are here 
as advocates of workers, I have to say that I am impressed at 
the depth of your report. I think staff would agree that it is 
a quite significant, detailed report, and I just wanted to 
acknowledge that.
    Mr. Soni, thank you.

           STATEMENT OF SAKET SONI AND JACOB HOROWITZ

    Mr. Soni. Thank you, Mr. Chairman and members of the 
committee, for this opportunity to testify about the utter 
failure of the U.S. Government to ensure that Federal agencies, 
particularly the Department of Labor, play a role in ensuring a 
just reconstruction, a moral reconstruction of New Orleans 
after Hurricane Katrina.
    My name is Saket Soni. This is Jacob Horowitz. I am the 
lead organizer at the New Orleans Workers Center for Racial 
Justice. The Center was founded in response to, on one hand, 
the systematic exclusion of African American workers after 
Hurricane Katrina, and on the other hand the systematic 
exploitation of immigrant workers after Hurricane Katrina.
    The exclusion and exploitation continues today. Two years 
after Hurricane Katrina, African Americans continue to be 
locked out of the reconstruction, while immigrant workers 
continue to be locked in.
    We represent hundreds of workers, residents, day laborers, 
and guest workers who are the heroes of the reconstruction. 
Over 700 workers testified in our report that documented the 
issues of work after Hurricane Katrina. Workers reported 
horrific conditions: homelessness, toxic workplaces, 
deportation on payday, police hiring workers at gunpoint, human 
trafficking. All of these were stories that were common 
knowledge after Hurricane Katrina.
    The climate of abuse was created by public policy decisions 
that, Chairman Kucinich, you laid out in your remarks--the 
suspension of Davis-Bacon, the suspension of Affirmative 
Action--and, as these reports suggest, the creation of a 
contractor regime that dispensed with accountability.
    Today, 2 years after Hurricane Katrina, workers continue to 
face abuse.
    I would like to tell you the story of one group of guest 
workers. Our Center represents hundreds of guest workers. These 
are foreign temporary workers on H2-B visas who come from many 
countries, over 10 countries, to the Gulf Coast. They are 
brought in through companies that certify through the 
Department of Labor that they can find no U.S. worker willing 
or able to do the work.
    One particular guest worker who called us late one night 
was a man named Fernando Rivera. Fernando is a young man from 
Mexico City, and he called with an urgent plea for help just 
before Christmas, 2006. Fernando's employer was a company named 
L.A. Labor, whose boss was a gentleman named Matt Redd. He and 
his coworkers had been recruited in Mexico by Matt Redd, a 
Louisiana resident. Workers had responded to flyers in hotels, 
word of mouth, and advertisements.
    Matt Redd promised Fernando $8 an hour for a hotel job or a 
restaurant job in New Orleans. He charged workers $400 for air 
fare, and then proceeded to confiscate their passports, pack 
them into vans, and transport them by road to West Lake, LA, 
which is about 4 hours away from New Orleans. Matt Redd then 
sequestered the workers in apartments owned by his own real 
estate company, Redd Properties, and charged them rent. And 
then, instead of placing him in the hotel jobs that he 
promised, he leased the workers out to various businesses 
across the Lake Charles area. Fernando, himself, was leased to 
a local restaurant and to a ranch owner. Other workers found 
themselves leased to casinos, garbage collection companies, and 
car washes. Fernando also did construction work for which he 
was never paid.
    Meanwhile, Matt Redd continued to be in illegal possession 
of their passports. Fernando had repeatedly asked Matt Redd for 
his passport and never received it, and had been threatened if 
he asked for it again.
    So in January 2006, just after the New Year, with the 
Center's assistance, Fernando organized a meeting of the 
employees. For Fernando, this was particularly important 
because his mother had been diagnosed with liver cancer. He 
needed his passport to go back home. He needed the money to pay 
for a transplant, and so he was desperate for his passport.
    The workers held a protest in front of Matt Redd's office, 
and, with the help of press and community allies, retrieved the 
passport. A month later they held a protest in front of the 
Department of Labor demanding that the DOL turn over the labor 
certification for LA Labor and that the Department of Labor 
decertify Matt Redd and hand over a list of all of the post-
Katrina H2-B employers. To this day we have not received a 
response on any of those requests.
    A couple of days after the protest outside the Department 
of Labor a special agent of the Fraud and Racketeering Division 
of the Department of Labor's Office of the Inspector General 
contacted us. He read the press accounts. After many, many 
instances of rescheduling, the special agent finally met with 
and interviewed workers, a second group of workers who had been 
brought in by Matt Redd as welders, promised $18 an hour, and 
come in and found that the jobs just didn't exist. They had 
been languishing for weeks and weeks in the apartments waiting 
for work that just never arrived.
    The agent told the workers that they had a very strong 
case, that this could be visa fraud, but that it was their 
responsibility and not Matt Redd's to prove that they were 
skilled workers. In other words, Matt Redd would just say that 
the reason they weren't working was that they weren't skilled.
    After many phone calls we gave evidence to the special 
agent. We asked recently if the agent had been investigating 
the case. He simply said that it was confidential. When we 
informed the agent that Matt Redd had the original documents 
proving the workers' skill level, the agent made no indication 
that he would be attempting to contact them for these 
documents.
    So the special agent has not yet followed up with us. The 
Department of Labor has not furnished the labor certifications. 
And Fernando is now back at home in Mexico City trying to raise 
money again for his mother's chemotherapy.
    Thousands of guest workers like Fernando have come to the 
Gulf Coast. We will provide a set of recommendations, but, very 
quickly, workers, themselves, believe that it is very important 
that the Department of Labor take responsibility to 
aggressively educate H2-B workers on their rights, to make sure 
that employers who don't follow the law are decertified, and to 
make sure that the Department of Labor conduct random audits 
and investigations on H2-B employers, and, most importantly, 
that in the context of the high level of unemployment in post-
Katrina Gulf Coast, any claim that you cannot find U.S. workers 
who are willing or able to do these jobs should really be 
scrutinized.
    In the final analysis made by H2-B workers, the guest 
worker program, itself, is deeply flawed. The condition these 
guest workers are in are a window into what workers across the 
country will face if Congress expands the program. As long as 
workers are tied to one employer, as long as they come into 
this country with debt, and as long as there is no regulation 
or policing of employers or recruiters, employers will have 
extraordinary power over workers, and all workers will find 
themselves in situations like Fernando's.
    Thank you.
    [The prepared statement of Mr. Soni follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.036
    
    [GRAPHIC] [TIFF OMITTED] T1702.037
    
    [GRAPHIC] [TIFF OMITTED] T1702.038
    
    [GRAPHIC] [TIFF OMITTED] T1702.039
    
    Mr. Kucinich. Mr. Horowitz, did you want to add anything to 
that?
    Mr. Horowitz. I can take questions. The only thing I would 
add is that I have been there on the ground with Fernando and 
with the other hundreds of workers.
    Mr. Kucinich. OK. We will reserve your comments during the 
question period then.
    Mr. Horowitz. Great.
    Mr. Kucinich. We are now at the period of asking questions.
    One of the things, Mr. Soni, that you just said in your 
report was that you were contacted by someone from the 
Department of Labor's Office of Inspector General.
    Mr. Soni. Yes, sir.
    Mr. Kucinich. And when was that first contact?
    Mr. Soni. This was March 16th.
    Mr. Kucinich. What year?
    Mr. Soni. This year. This was very briefly after the 
workers held a protest outside of the Department of Labor in 
New Orleans.
    Mr. Kucinich. And has the Inspector General's office had 
any contact with you since then?
    Mr. Soni. We had several instances of contact with this 
particular agent, this special agent, but not outside of that 
with the office, in general.
    Mr. Kucinich. OK. I am just going to tell you that, while 
it is not usual for the Office of Inspector General to divulge 
the status of an investigation to anyone, including Congress, 
our committee staff will take note of your testimony, which 
raises serious questions about the performance of the Inspector 
General's Office, and we will contact the Inspector General for 
the Department of Labor to make a determination as to whether 
or not they are proceeding, and we will let you know, because 
we are very concerned about this. If there is an investigation 
ongoing, it is really not my business to inquire into what they 
are investigating, but it is my business that they investigate. 
So we will followup on that. I just wanted to mention that.
    I have one other question.
    Mr. Soni. The workers will be very gratified to hear that.
    Mr. Kucinich. And this is what we do. I just want to ask 
another question. In your testimony you said, ``Matt Redd then 
confiscated their passports, packed them into vans, transported 
them across the border to the town of West Lake, LA, some 4 
hours away from New Orleans.'' Did anyone ever contact the 
Justice Department to raise a question as to whether or not 
kidnapping and/or trafficking charges could be filed against 
this person, Mr. Horowitz?
    Mr. Horowitz. Yes. In fact, after the initial protest that 
the workers held in front of Matt Redd's office where they were 
able to get their passports back, after that Fernando and 
another worker who experienced the same problems went and 
talked with an agent of the FBI about this instance. It was an 
officer named Renee Luna, who took some notes on the story but 
never followed up.
    Mr. Kucinich. I am just going to ask the staff of this 
committee to followup with an inquiry to the FBI about this, 
because, you know, this testimony raises certain questions 
about the extent to which Federal law is violated with respect 
to either kidnapping and/or trafficking, so we will followup on 
that.
    What is the next point?
    Mr. Soni. I just wanted to add that the agent of the FBI 
who interviewed Fernando and other workers in our presence was 
personally sympathetic but very unaware of the realities of 
immigration and the realities of the H2-B visa.
    Mr. Kucinich. OK. Let me ask you something, to Mr. Soni and 
Mr. Horowitz. You talked about a protest in front of the 
Department of Labor. I may know the answer, but I have to ask 
you why.
    Mr. Soni. Well, there were a couple of reasons. First of 
all, we felt that the workers deserved a direct interaction 
with the Department of Labor and the press. Workers had already 
spoken to the parish sheriff's office, to the FBI, had written 
to the Department of Labor, and that hadn't gotten them 
anywhere, so it was partly to dramatize the urgency with which 
these workers' issues had to be resolved.
    Mr. Kucinich. OK. I have used 5 minutes. What we are going 
to do is go back and forth here. I am going to ask this panel 
to stay and we are going to have at least another round and 
maybe a third round.
    I want to yield to Mr. Davis from Illinois.
    Mr. Davis, thank you very much for your presence here.
    Mr. Davis of Illinois. Thank you, Mr. Chairman.
    Mr. Steele, let me ask, did you try any local officials at 
all to try to get some help?
    Mr. Steele. Did I do what?
    Mr. Davis of Illinois. Contact any local officials, like 
State representatives, the mayor's office, or city council 
members, or the Governor's office, or anybody on the ground in 
New Orleans to----
    Mr. Steele. Yes. Yes, I did, Congressman. One instance the 
week before Thanksgiving of 2005, about 40 guys from Atlanta 
had to go back home on a school bus and it took overnight for 
them to get home, and we was at the ECC office because there 
had been no pay. We hadn't had a paycheck since we had been in 
New Orleans from this guy. I tried calling the mayor and I left 
word with someone at the mayor's office, and I also tried 
calling the press. Nobody showed up to the ECC office in New 
Orleans to try to help us at all, and I was just trying, and 
kept trying. I was talking about it to everybody, and it seemed 
like the farther I'd bet with somebody, I got shut off. But 
then I got hooked up with Gomez, something of a labor guy, and 
then he hooked me up with some other people from the ACLIOU.
    Mr. Davis of Illinois. So you really felt like you were in 
a no-man's land, I mean, just----
    Mr. Steele. Yes.
    Mr. Davis of Illinois. There was nothing that you could put 
your finger on or----
    Mr. Steele. Couldn't put my finger on nothing. You know, it 
was nobody there to turn to. It was nobody there. If you called 
somebody, you always got a busy signal, or you had to put on a 
recording. You kept putting it on a recording and no one never 
called back. I had a phone. I had a phone and I gave them my 
number. I kept a 504 number just up until 2 months ago, and 
never heard nothing from nobody within that whole year.
    Mr. Davis of Illinois. Mr. Smukler, you indicate that 47 
percent of the workers that you have come into contact with 
reported not receiving any pay at all?
    Mr. Smukler. No. The 47 percent didn't receive all the pay 
they were entitled to.
    Mr. Davis of Illinois. And, of course, nobody got overtime. 
I mean, were there any representations made that people should 
have received overtime?
    Mr. Smukler. Well, I am not quite sure I understand the 
question. It is the law.
    Mr. Davis of Illinois. You say that people did not receive 
overtime pay. Were they aware that perhaps they should have 
received any overtime pay?
    Mr. Smukler. We tried to followup with people afterwards, 
but in the survey the question was put, ``were you paid 
overtime for any hours past 40 a week,'' and I think it was 55 
percent said no.
    Mr. Davis of Illinois. Mr. Soni and Mr. Horowitz, the kind 
of work that the companies were suggesting that they could not 
find anybody locally to do in order for guest workers to get 
visas, what kind of work was that, engineers?
    Mr. Soni. Well, in the greater New Orleans area in 
Louisiana and the Gulf Coast, in general, right now it covers 
just about any kind of work, from a maintenance clerk to front 
desk clerk to a housekeeper in a hotel, for $6.09 an hour. We 
have guest workers working in little sandwich shops and gas 
stations, guest workers working in carnivals, guest workers 
working in a large number of unskilled areas.
    We also have guest workers who are skilled pipefitters, 
welders, and skilled laborers, but in large part in Louisiana 
the guest workers are not particularly skilled.
    Mr. Davis of Illinois. So there were just no people left in 
New Orleans who lived there or who were residents?
    Mr. Soni. Well, in reality there are a large number of 
people in New Orleans who are unemployed and who would take 
these jobs. In fact, there is a hotel in New Orleans called the 
Astro Crown Plaza, which was home to hundreds of unemployed 
FEMA voucher-holding African American survivors of Hurricane 
Katrina. This hotel brought guest workers from Peru, the 
Dominican Republic, and Bolivia. In a major lawsuit that 
workers who we organized filed with the Southern Poverty Law 
Center and that we worked on with Jennifer Rosenbaum here, we, 
in the course of our conversations with the workers, found that 
there were a large number of African Americans living in the 
hotel unemployed immediately before the workers came, and that, 
nonetheless, the hotel owner filed a labor certification with 
the Department of Labor saying that he could not find any U.S. 
worker willing or able to do the job at that time.
    Mr. Davis of Illinois. So they were deliberately bypassing 
these individuals in order to bring in guest workers who they 
could exploit?
    Mr. Soni. Well, it is very hard for us and for me, 
personally, to tell a story of intention, but certainly the 
impact is that low-wage African American workers are left out 
while guest workers are brought in. But the important thing 
also to note is that low-wage African American workers are left 
out of, say, $8 an hour or $10 an hour jobs. Those jobs are 
then turned into temporary hourly paid $6 an hour jobs, and 
guest workers are brought in, and as guest workers they have 
fewer rights. They are tied to that employer, so what the 
employer gets out of it is a much more exploitable, vulnerable, 
temporary worker.
    Mr. Davis of Illinois. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Kucinich. Thank you.
    I would like to just have one more round of questioning for 
this first panel.
    Ms. Rosenbaum, you in your testimony talk about your 
independent litigation has shown that recovery of unpaid 
minimum and overtime wages and liquidated damages from general 
contractors and their subcontractors who jointly employed 
migrant reconstruction workers is quite possible. Are you aware 
of any general contractors or subcontractors who told you they 
didn't get paid by the Government, therefore they couldn't pay 
you?
    Ms. Rosenbaum. In both of the cases that we have filed, the 
contractors were not Government contractors. But we did hear 
rumors from subcontractors at various places in the 
subcontracting chains that was their excuse. That is part of 
the reason why we think it is very important for any 
investigation of wage and hour violations to investigate all 
the possible joint employers, because it is clear in this 
context, just as it is in the farm labor context and the 
garment worker context regularly, that the significant 
contractors have the ability to control whether wages are paid. 
They are monitoring whether the work is being done correctly. 
They are monitoring whether people have the materials that they 
need. And they could certainly monitor to ensure that Federal 
minimum wage and overtime and Davis-Bacon wages----
    Mr. Kucinich. Have you taken the time to do a chart, you 
know, Contractor XYZ, Subcontractors ABCDEFGHI, Contractor paid 
subcontractors who did or didn't pay? You know, I think it 
would be helpful if you know this, because what we obviously 
need to do is to see the extent to which there might be a 
conspiracy not to pay, to look at the relationships between 
contractors and then to see if this issue that you raised about 
those who jointly employed migrant reconstruction workers, what 
their business practices were to begin with.
    Ms. Rosenbaum. I think the other really important issue is 
systemic mislabeling of employees as independent contractors in 
order to avoid overtime payments, to avoid Federal tax 
liability, and to avoid other kinds of----
    Mr. Kucinich. OK. Now you are talking about involving the 
IRS. This is getting to be an interesting hearing here, because 
this is a significant issue of people who are misclassified.
    Mr. Davis, you know we have talked about this in terms of 
workers in this country who are misclassified so that they are 
not paid, so benefits aren't paid, taxes aren't paid.
    Again, staff, this is an issue that may also require or 
will require that we contact the Internal Revenue Service with 
respect to these specific contractors to see the extent to 
which they may actually be conspiring to defraud the Government 
or conspiring not to file their responsibilities to withhold 
taxes. This is very helpful testimony here.
    Now, can you elaborate, Ms. Rosenbaum, on the case in which 
workers did not receive their checks, the Paul Davis National 
case? Can you tell this committee a little bit about that?
    Ms. Rosenbaum. Sure. This is a case that we originally 
identified about 25 workers who were recruited outside of New 
Orleans in Florida by a labor broker, were transported to the 
Gulf Coast, and left, worked a week to several weeks, and then 
were left without any payment at all and were just left at the 
worksite. The contractor left without paying them.
    It was a case we originally brought to the Department of 
Labor believing that they had the particular investigatory 
capacity to locate all affected workers. This is something that 
the Federal Department of Labor has in a much different way 
than private attorneys have, where, under the Fair Labor 
Standards Act, opt-in procedures in order to recover systemic 
unpaid wages. Private attorneys and their clients have to 
locate individual workers and make them opt in, whereas the 
Department of Labor has the ability to recover unpaid wages for 
all affected workers.
    So in this case we brought the case to the Department of 
Labor. They spoke with a handful, I would say--I don't have the 
investigative file--of the workers involved, but they certainly 
did not speak with the majority of the complainants. The 
majority of the complainants continued to call our office to 
ask such basic questions as, is there an investigation going 
on? We are not talking about confidential investigative data 
being released during an investigation; we are talking about 
people who have made complaints to the Department of Labor 
knowing whether their complaint is under investigation or is 
closed, knowing that it on average takes 6 months to complete 
an investigation or 3 months, having the contact name and 
telephone number of a professional at the Department of Labor 
who they can call and ask a question about how much longer the 
investigation is intended to take.
    Some wages were recovered on behalf of those workers, 
although, once again, recovered without being in contact with 
the majority of the complainants. We think this is a 
particularly problematic way to run an investigation, given our 
experience of the faulty records of subcontractors on the Gulf 
Coast. In our wage cases, we have had to audit all records that 
we have received in order to ensure that the wages and hours 
recorded are actually the hours worked by immigrant workers, 
and in many cases the faulty records seriously under-report 
hours that people worked. And so if cases are being settled by 
the Department of Labor complaints based on faulty 
subcontractor records, they are being under-valued 
significantly, and workers are not being given a chance to even 
weigh in on whether the records accurately reflect that.
    When the checks were obtained, many of them were sent to an 
office in a State where the majority of workers did not live 
and where no one in that office spoke the language that the 
majority of these workers speak in order to even communicate 
about getting their check to them. And as far as we know, there 
are workers that remained unpaid an unable to receive these 
checks.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.040
    
    [GRAPHIC] [TIFF OMITTED] T1702.041
    
    [GRAPHIC] [TIFF OMITTED] T1702.042
    
    [GRAPHIC] [TIFF OMITTED] T1702.043
    
    [GRAPHIC] [TIFF OMITTED] T1702.044
    
    [GRAPHIC] [TIFF OMITTED] T1702.045
    
    [GRAPHIC] [TIFF OMITTED] T1702.046
    
    [GRAPHIC] [TIFF OMITTED] T1702.047
    
    [GRAPHIC] [TIFF OMITTED] T1702.048
    
    [GRAPHIC] [TIFF OMITTED] T1702.049
    
    [GRAPHIC] [TIFF OMITTED] T1702.050
    
    [GRAPHIC] [TIFF OMITTED] T1702.051
    
    [GRAPHIC] [TIFF OMITTED] T1702.052
    
    [GRAPHIC] [TIFF OMITTED] T1702.053
    
    [GRAPHIC] [TIFF OMITTED] T1702.054
    
    [GRAPHIC] [TIFF OMITTED] T1702.055
    
    [GRAPHIC] [TIFF OMITTED] T1702.056
    
    [GRAPHIC] [TIFF OMITTED] T1702.057
    
    [GRAPHIC] [TIFF OMITTED] T1702.058
    
    [GRAPHIC] [TIFF OMITTED] T1702.059
    
    [GRAPHIC] [TIFF OMITTED] T1702.060
    
    [GRAPHIC] [TIFF OMITTED] T1702.061
    
    [GRAPHIC] [TIFF OMITTED] T1702.062
    
    [GRAPHIC] [TIFF OMITTED] T1702.063
    
    [GRAPHIC] [TIFF OMITTED] T1702.064
    
    [GRAPHIC] [TIFF OMITTED] T1702.065
    
    [GRAPHIC] [TIFF OMITTED] T1702.066
    
    [GRAPHIC] [TIFF OMITTED] T1702.067
    
    [GRAPHIC] [TIFF OMITTED] T1702.068
    
    [GRAPHIC] [TIFF OMITTED] T1702.069
    
    [GRAPHIC] [TIFF OMITTED] T1702.070
    
    [GRAPHIC] [TIFF OMITTED] T1702.071
    
    Mr. Kucinich. Thank you very much.
    I would just have one final question to ask of Mr. Steele 
before we end this panel after Mr. Davis.
    What is the status of your case now? Have you been paid?
    Mr. Steele. No, sir, I haven't. Like I said, I talked with 
the law clinic for over a year, and I finally got in touch with 
them back in February to see what was happening. The girl, 
Vanessa, told me that I needed to call the DOL in New Orleans 
instead of the DOL calling me, so when I called the DOL to find 
out what was up she asked me a whole bunch of questions. What 
were the people who I was working for? Did I have any 
information? I told her blankly that she has a Government 
computer, she can track these folks down more quickly than I 
can, and then she said I need to do this. So I went out and I 
got help finding out where these people were at and I called 
her back and gave her the information. Then, when she filed my 
claim, like I said, I haven't heard anything from these folks 
until, like, last week. Then her supervisor called me, started 
interrogating me on the phone like I was the bad guy.
    Mr. Kucinich. How much are you owed?
    Mr. Steele. It is somewhere in the neighborhood of about 
30,000.
    Mr. Kucinich. Thank you, sir.
    Mr. Davis.
    Mr. Davis of Illinois. Just one question, Mr. Chairman, and 
it calls for sort of an opinion or a speculation.
    When we began the hearing we talked about the fact that 
some of the labor laws were, in fact, suspended. I guess the 
idea of suspending them would have been that it was going to, 
in some way, facilitate the rebuilding or make it easier or 
speed up the process of rebuilding New Orleans.
    Would any of you care to speculate as to whether or not 
this has in any way facilitated, made it easier, or speeded up 
the rebuilding of New Orleans?
    Mr. Steele. Well, I will do this. All right. You want to 
know about the process that was going on?
    Mr. Davis of Illinois. Yes. Did it make it easier? Did it 
speed it up? Did it make it faster?
    Mr. Steele. No, it didn't. The only thing that made it 
speedy and faster was when, after this hurricane happened, we 
went in and we started down in the Elysian Field area--that is 
down by the 9th Ward. It was up in the 9th Ward area around the 
French Quarter. They wanted to get that cleaned up, but you 
still had other areas in New Orleans that are still in 
shambles, like Gentilly. I forget the parish on our side, going 
out by Lake Charles, all up in that area is still houses off of 
Schiff road, there are neighborhoods that are still blocked in. 
No one has gone in there to do any cleanup at all. You know, 
that is neighborhoods that are still in shambles.
    Ms. Rosenbaum. I would like to say I think it sped up the 
entry of bad faith, fly by-night subcontractors who got a sense 
of what was likely to happen and accurately predicted the non-
enforcement of labor law and the ability to extract money that 
should have been going to the people who were working these 
jobs out of the system, and it detracted from the rebuilding 
because many workers like Mr. Steele, after 3 and 4 months, the 
skilled workers who were there because they wanted to support 
New Orleans and the Gulf Coast, ultimately had to leave because 
they couldn't risk the continued nonpayment.
    Mr. Soni. I just wanted to add that the pattern of what 
happened was that, by suspending the Davis-Bacon Act, it 
allowed subcontractors to hire the cheapest worker. By lifting 
sanctions on employers, allowing them to employ undocumented 
immigrants, it incentivized the mistreatment of undocumented 
immigrants. The suspension of Affirmative Action basically shut 
a large number of people out of returning home. These would 
have been the first people to come back home to areas like 
Central City and Gentilly, and if they had come back then they 
would have repopulated those areas.
    So as a result of these very contradictory public policies, 
what you had was a reconstruction that lacked any kind of 
coherent whole or clarity, with the result that now New Orleans 
is a patchwork of neighborhoods with a home here that has been 
rebuilt, a Burger King there that is a little homestead Burger 
King established in the middle of nowhere, and no real 
coherence in terms of residents who are able to come back.
    Mr. Davis of Illinois. Yes.
    Mr. Smukler. I would like to add that it could have been so 
different, because, you know, it was a complete tragedy, but it 
offered a possibility for a high road strategy for rebuilding 
New Orleans based on, you know, Government supporting 
industries that paid living wages and paid health benefits and 
encouraging people who were made refugees to come back, you 
know. Instead, as all of my colleagues have said, it has 
created a situation where it encouraged the worst possible low 
road practices.
    Mr. Davis of Illinois. Thank you all so very much.
    Thank you, Mr. Chairman.
    Mr. Kucinich. Thank you, Mr. Davis.
    Before dismissing the first panel here, I would like to 
introduce the ranking member of this committee, who is our 
partner in so many of these hearings, the Honorable Darrell 
Issa of California.
    Do you have a statement to make or anything to say?
    Mr. Issa. Mr. Chairman, I will put my statement in for the 
record.
    I would only ask that additional material from George Mason 
be placed in the record.
    Mr. Kucinich. So ordered, without objection.
    Mr. Issa. Thank you.
    [The prepared statement of Hon. Darrell E. Issa and the 
information referred to follow:]

[GRAPHIC] [TIFF OMITTED] T1702.072

[GRAPHIC] [TIFF OMITTED] T1702.073

[GRAPHIC] [TIFF OMITTED] T1702.074

[GRAPHIC] [TIFF OMITTED] T1702.075

[GRAPHIC] [TIFF OMITTED] T1702.076

[GRAPHIC] [TIFF OMITTED] T1702.077

[GRAPHIC] [TIFF OMITTED] T1702.078

[GRAPHIC] [TIFF OMITTED] T1702.079

[GRAPHIC] [TIFF OMITTED] T1702.080

[GRAPHIC] [TIFF OMITTED] T1702.081

[GRAPHIC] [TIFF OMITTED] T1702.082

[GRAPHIC] [TIFF OMITTED] T1702.083

[GRAPHIC] [TIFF OMITTED] T1702.084

[GRAPHIC] [TIFF OMITTED] T1702.085

[GRAPHIC] [TIFF OMITTED] T1702.086

[GRAPHIC] [TIFF OMITTED] T1702.087

[GRAPHIC] [TIFF OMITTED] T1702.088

[GRAPHIC] [TIFF OMITTED] T1702.089

[GRAPHIC] [TIFF OMITTED] T1702.090

[GRAPHIC] [TIFF OMITTED] T1702.091

[GRAPHIC] [TIFF OMITTED] T1702.092

[GRAPHIC] [TIFF OMITTED] T1702.093

[GRAPHIC] [TIFF OMITTED] T1702.094

[GRAPHIC] [TIFF OMITTED] T1702.095

[GRAPHIC] [TIFF OMITTED] T1702.096

[GRAPHIC] [TIFF OMITTED] T1702.097

[GRAPHIC] [TIFF OMITTED] T1702.098

[GRAPHIC] [TIFF OMITTED] T1702.099

[GRAPHIC] [TIFF OMITTED] T1702.100

[GRAPHIC] [TIFF OMITTED] T1702.101

[GRAPHIC] [TIFF OMITTED] T1702.102

[GRAPHIC] [TIFF OMITTED] T1702.103

[GRAPHIC] [TIFF OMITTED] T1702.104

[GRAPHIC] [TIFF OMITTED] T1702.105

[GRAPHIC] [TIFF OMITTED] T1702.106

[GRAPHIC] [TIFF OMITTED] T1702.107

[GRAPHIC] [TIFF OMITTED] T1702.108

[GRAPHIC] [TIFF OMITTED] T1702.109

[GRAPHIC] [TIFF OMITTED] T1702.110

[GRAPHIC] [TIFF OMITTED] T1702.111

[GRAPHIC] [TIFF OMITTED] T1702.112

    Mr. Issa. I thank the witnesses. I apologize. I just 
returned from overseas, but I appreciate your testimony. 
Clearly, this committee has a lot more to learn from mistakes 
made at Federal, State, and local level before, during, and 
after this tragedy, and your part in helping us understand some 
of the continued mistakes in the immediate aftermath will be 
helpful, God willing, before the next disaster which inevitably 
will hit somewhere in the country. I thank you for your 
testimony.
    Mr. Kucinich. I thank Mr. Issa.
    Again, on behalf of the subcommittee, we are all very 
grateful for the time that you have taken to be here and to 
share with us your stories, and for the forbearance that you 
have demonstrated in having to live these conditions and the 
suffering that you have had to go through that you have now 
communicated to us, and for your advocacy of the cause for 
those whose voices you are representing here today. So thanks 
to all of you.
    This ends the first panel, and we will now go to the next 
panel, the gentleman from the Department of Labor.
    I want to welcome the representatives from the Department 
of Labor who are here. We have information for all three.
    First, I would like to introduce Paul DeCamp.
    Mr. DeCamp, welcome.
    Mr. DeCamp is the Administrator of the Wage and Hour 
Division of the Employment Standards Administration under the 
U.S. Department of Labor, a position which he has held since 
August 2006. Prior to his appointment by President Bush, Mr. 
DeCamp served as a senior policy advisor to the Assistant 
Secretary of Labor for Employment Standards, and before working 
in the public sector he practiced law with the law firm of 
Gibson, Dunn, and Crutcher.
    Under Mr. DeCamp, the Wage and Hour Division is responsible 
for enforcing many of our Nation's most important labor laws, 
including the minimum wage, overtime pay, the Family and 
Medical Leave Act, and the Davis-Bacon Act, which governs the 
prevailing wage.
    He is also here with Dr. William Carlson. Dr. Carlson is 
the Administrator of the Office of Foreign Labor Certification 
in the Employment and Training Administration under the U.S. 
Department of Labor. This particular administration is 
responsible for administering foreign labor certification 
programs, including temporary certification such as H2-A and 
H2-B programs and permanent certification such as H1-B, H1-C, 
and D-1 programs.
    Finally, Mr. Alexander Passantino is the Deputy 
Administrator of the Wage and Hour Division of the Employment 
Standards Administration under the U.S. Department of Labor. 
Before holding his current position, he was an associate in the 
law firm of Hunton and Williams dealing with labor and 
employment issues.
    I understand that Mr. Passantino and Dr. Carlson are here 
to assist Mr. DeCamp in answering the subcommittee's questions.
    It is the policy of the Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify, and I would ask that all of you who are going to be 
involved in this process will rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that all of the 
witnesses answered in the affirmative. Thank you.
    As with panel one, I ask that each witness give an oral 
summary of his testimony--in this case Mr. DeCamp--and keep in 
mind that the summary can be under 5 minutes in duration. Your 
entire statement will be included in the record.
    May we begin? Thank you.
    I want to indicate for the purpose of the record that our 
subcommittee is pleased to be joined by another one of our 
distinguished Members, the gentlelady from California, the 
Honorable Diane Watson. Thank you.
    You may proceed, sir.

    STATEMENT OF PAUL DECAMP, ADMINISTRATOR, WAGE AND HOUR 
 DIVISION, EMPLOYMENT STANDARDS ADMINISTRATION, DEPARTMENT OF 
LABOR, ACCOMPANIED BY WILLIAM L. CARLSON, PH.D., ADMINISTRATOR, 
OFFICE OF FOREIGN LABOR CERTIFICATION, EMPLOYMENT AND TRAINING 
  ADMINISTRATION, U.S. DEPARTMENT OF LABOR; AND ALEXANDER J. 
   PASSANTINO, DEPUTY ADMINISTRATOR, WAGE AND HOUR DIVISION, 
 EMPLOYMENT STANDARDS ADMINISTRATION, U.S. DEPARTMENT OF LABOR

    Mr. DeCamp. Thank you.
    Chairman Kucinich, Ranking Member Issa, and distinguished 
members of the subcommittee, thank you for the opportunity to 
appear before you today to discuss the efforts of the 
Department of Labor's Wage and Hour Division in New Orleans and 
throughout the Gulf Coast following the devastation of 
Hurricanes Katrina and Rita. The dedicated men and women of the 
Wage and Hour Division have done and continue to do a 
remarkable job under these extraordinary circumstances. I am 
honored to have the chance to highlight their efforts, to 
discuss the challenges that we have faced, and to address some 
of the agency's strategies for overcoming those challenges.
    For starters, it is important to understand what the Wage 
and Hour Division is and how it carries out its mission. We 
enforce many of the Nation's most important and broadly 
applicable employment laws. Under normal circumstances, most of 
our enforcement activity, around 80 percent, involves 
investigating complaints that we receive from workers alleging 
a violation of one or more of our laws. We also recognize that 
certain types of violations are less likely to generate 
complaints, so with our remaining enforcement resources we 
conduct directed investigations. These cases, initiated in the 
absence of a complaint, target particular industries or 
employers where we believe there is a substantial likelihood of 
noncompliance.
    The agency's enforcement history shows us that low-wage 
industries tend to have significant compliance issues. In 
businesses such as garment, retail, restaurants, construction, 
health care, janitorial services, and others, we see patterns 
of violations involving failure to pay for all hours worked, 
failure to pay minimum wage, failure to keep records, and a 
host of other problems.
    Experience also teaches us that low-wage workers are less 
likely than other workers to complain about violations, and 
this is true for many reasons. These workers are less likely to 
know their rights. They are often afraid to complain of 
violations for fear of losing their jobs. Many of these workers 
also have limited English language proficiency. And in many of 
these businesses, as well as in agriculture, we see substantial 
numbers of undocumented workers. These workers, in particular, 
are extremely reluctant to file a complaint with any Federal 
agency for fear of being arrested and deported.
    Following Hurricanes Katrina and Rita, a large number of 
workers, including undocumented workers, moved to the Gulf 
Coast to pursue jobs in construction and debris removal, as 
well as serve in positions with hotels and casinos. At the same 
time, given the amount of Federal Government contract work to 
be done to clean up and to rebuild the region, many new, 
inexperienced, under-capitalized businesses sprang up as 
subcontractors and moved to the Gulf Coast. Thus, the work 
force in New Orleans and the Gulf Coast, more broadly, saw a 
major influx of workers who are less likely to complain when 
their wage rights are violated.
    To make matters worse, many of the employers in the region, 
particularly on large Government contracts, were unfamiliar 
with the Federal wage and hour laws, and there were certainly 
employers in the region who had no intention of complying with 
the law.
    The very nature of the work performed also presented 
enforcement challenges. The geographic scope of the work was 
very broad and varied, and workers clearing debris in one 
neighborhood on a given day might be working in a different 
neighborhood or a different city entirely the next day. Many of 
these workers also do not know their employer's name, beyond 
perhaps a first name, and many of them have no idea that they 
are working on a Federal contract.
    Under these circumstances, as set out in more detail in my 
written testimony, it has been much more difficult than usual 
for the agency to conduct its enforcement activities. We have 
taken a number of steps to overcome these challenges.
    First, we have asked for significantly more resources. The 
pending budget request for 2008 seeks an increase of $16.7 
million and 136 employees over the 2006 and 2007 funding 
levels.
    Second, with local staff bolstered by 33 investigators and 
5 managers from across the country, we have conducted a large 
number of directed investigations in the Gulf Coast. So far we 
have opened more than 430 hurricane-related cases, and we have 
recovered millions of dollars in back wages for workers in the 
region.
    Third, we have engaged in extensive public outreach to 
inform workers of their rights under the laws we enforce, as 
well as how to contact us for further information or to make a 
complaint. We have a toll-free hotline where workers can 
receive assistance in Spanish, Portuguese, and close to 150 
other languages.
    Fourth, we have worked closely with several major 
contracting agencies, as well as the contractor community, to 
make sure that contractors understand their obligations and 
that the necessary wage rates are incorporated into these 
contracts.
    Fifth, we have partnered with many community and advocacy 
groups, including Hispanic Apostolate, the Mississippi 
Immigrants Rights Alliance, and the Workplace Justice Clinic at 
Loyola Law School in New Orleans, to receive information about 
potential violations and to get the message out that workers 
can and should feel comfortable coming to the Wage and Hour 
Division with their issues.
    Our enforcement strategies in the Gulf Coast continue to 
evolve as we gain information and experience regarding the 
latest compliance challenges, as well as what works best in 
response. We do not have all the answers, but we are always 
open to new ideas and assistance from anyone who shares our 
commitment to protecting our Nation's workers.
    Thank you.
    [The prepared statement of Mr. DeCamp follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.113
    
    [GRAPHIC] [TIFF OMITTED] T1702.114
    
    [GRAPHIC] [TIFF OMITTED] T1702.115
    
    [GRAPHIC] [TIFF OMITTED] T1702.116
    
    [GRAPHIC] [TIFF OMITTED] T1702.117
    
    [GRAPHIC] [TIFF OMITTED] T1702.118
    
    [GRAPHIC] [TIFF OMITTED] T1702.119
    
    [GRAPHIC] [TIFF OMITTED] T1702.120
    
    [GRAPHIC] [TIFF OMITTED] T1702.121
    
    [GRAPHIC] [TIFF OMITTED] T1702.122
    
    Mr. Kucinich. I want to thank the gentleman for his 
testimony.
    I think any one of us who has listened to the testimony of 
the preceding panel would agree that your responsibilities must 
at times be quite daunting, so we have compassion for that. At 
the same time, the comments of the first panel I am sure had to 
be of great concern to you. Am I correct?
    Mr. DeCamp. They were of concern, but I would say they were 
of concern in part because I think they reflect a 
misunderstanding of the work that we have done in the region. I 
have no doubt about the sincerity of the panelists who care 
about these workers, and I applaud their efforts, but I think 
that there has been a misunderstanding.
    For example, the representation that we have reduced our 
enforcement somehow in the Gulf Coast or in New Orleans 
following the hurricane is simply wrong. In the year following 
Katrina, we opened approximately 300--more than 300 hurricane-
related cases in the Gulf Coast.
    Mr. Kucinich. Let me, if I may, just go over some of the 
suggestions that I think were offered in good faith----
    Mr. DeCamp. Sure.
    Mr. Kucinich [continuing]. By the Interfaith Worker Justice 
group, where they are asking, among other things, that the 
Department of Labor develop a public protocol, including 
unannounced visits, targeting regions, industries, and 
employers with records of widespread abuses. How do you respond 
to that?
    Mr. DeCamp. We already do that. I agree with their 
recommendation that we should be doing that, and we do. I would 
note that, although in the ordinary course about 80 percent of 
our work is in response to complaints that we receive, we 
specifically recognize that in the Gulf Coast, because of the 
large influx of undocumented workers and other low-wage 
workers, we have had to adjust our enforcement strategy.
    So, for example, in the first year following the hurricane, 
close to half of our cases were cases that we initiated, as 
opposed to complaint cases, and in the second year following 
the hurricane it was more than 80 percent of our work was cases 
that we initiated, as opposed to sitting back and waiting for 
employee complaints. So we have had to adjust our approach, and 
we have really gone to great lengths to do that.
    Mr. Kucinich. Tell me something. Help me figure this out. 
According to our staff report, the number of Department of 
Labor investigations in New Orleans decreased from 70 in the 
year before Katrina to 44 in the year after Katrina, a 37 
percent decrease. Are you disputing that? Are you saying that 
is not true, that you actually have more investigations and not 
less?
    Mr. DeCamp. Two points. Yes, the numbers are wrong, but, 
more importantly, the number doesn't tell the whole story. What 
the number reflects is the 12 months preceding Katrina versus 
the 11 months following Katrina. Now, what that also reflects 
is work that was done in the city of New Orleans, the city 
limits, proper, involving employers who had addresses in New 
Orleans. That ignores the fact that many of the cases, perhaps 
most of the cases that we handled involved employers who came 
in from outside of New Orleans, who had addresses that were 
outside of New Orleans, and therefore many of the cases--as I 
said, we had over 300 hurricane-related cases that we opened in 
that first year.
    We had cases that were not handled by the New Orleans 
District Office, even though the workers and the violations may 
have been in New Orleans. If the employer was based in, say, 
Kansas City or Seattle, or any of the 19 other offices where we 
had investigations being conducted, those would be benefiting 
the workers in New Orleans and in the Gulf Coast, but not 
necessarily reflected in that situation.
    Mr. Kucinich. Well, did your case load, for example, in New 
Orleans increase after the hurricanes?
    Mr. DeCamp. It depends on what we mean by in New Orleans. 
That is the issue. The New Orleans office, itself, was shut 
down for about 2 months following the hurricane. We were shut 
down and we were able to open up space in a retail mall in 
Metairie 2 months to 3 months later. But what happened is the 
investigators that had been in New Orleans went to other 
offices. They went to Grand Rapids, they went to Jacksonville, 
Dallas----
    Mr. Kucinich. OK. I understand the point you are making, 
but here is my question: the attorney, Ms. Rosenbaum, testified 
``even workers who did contact DOL WHD and who were able to 
communicate with a staff person were often dismissed with a 
shallow, cursory review. Often their complaints were not even 
recorded by the agency. Workers simply went away.''
    Now, isn't that why, in response to my staff's document 
request in which they requested the total number of complaints 
pursued and not pursued, you did not submit the total number of 
cases not pursued by the DOL?
    And at this point I want to enter in the record an e-mail 
sent from a congressional liaison to the Department of Labor, 
Sarah Cudworth, that states that the Department of Labor does 
not keep a record of what it terms non-actionable complaints.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.123
    
    Mr. Kucinich. Do you have a response to that?
    Mr. DeCamp. Right. When someone comes to the Department and 
makes an allegation that does not involve a violation of our 
laws or does not on its face appear to involve a violation of 
our laws, the case would not necessarily be registered. If it 
is not registered, we are not going to be tracking that as a 
complaint. For example, if someone comes in and says I was paid 
only $7 an hour, if that is not a minimum wage situation or 
another prevailing wage kind of situation we wouldn't record 
it, because it doesn't on its face constitute a violation.
    I did hear the comments in the first panel about the need 
for the Department to go further to investigate, but there is a 
certain amount of screening that goes on to weed out complaints 
that on their face don't have any information.
    If we have a worker, for example, who calls and says, look, 
I didn't get paid at all for the work I did but I don't know 
who my employer is and I don't know where he is and I don't 
know where I did the work, if there is nothing that we can go 
on for an investigation we wouldn't have registered that 
complaint.
    Mr. Kucinich. I am going to complete my questions in this 
first round and ask you why can't you submit the total number 
of cases that weren't pursued? I mean, let me give you an 
example. I have a District office. It handles 10,000 requests 
for services a year. We have 14 employees in the Cleveland 
area. We track every call that comes in, and we give it a 
number. Then I can go into any one of those cases like that and 
know what action was taken or wasn't taken. I am asking you why 
could you not submit the total number of cases not pursued by 
the DOL?
    Mr. DeCamp. Because they are not cases in terms of how the 
Department keeps track of the information. We have a data base 
that records complaints that have been registered, and when 
complaints have not been made, if they haven't risen to a level 
of a complaint to the point where it would be registered in our 
computer, then we can't track that, so we wouldn't have the 
record.
    Mr. Kucinich. And I am told that in a FOIA the Department 
of Labor would not release information on what their process 
was related to targeted investigation, because this would 
violate law enforcement confidentiality.
    Mr. DeCamp. Correct.
    Mr. Kucinich. And that the drop in cases resolved from 70 
to 44 was the Department of Labor's answer to a FOIA for the 
New Orleans metro area, not just----
    Mr. DeCamp. The FOIA request did not request the metro 
area. That was part of the issue, was that the FOIA request 
talked about in New Orleans, and the answer was within the city 
of New Orleans.
    Mr. Kucinich. So when does something become a case?
    Mr. DeCamp. When it is registered in our data base.
    Mr. Kucinich. And could people conceivably call you and 
staff just says, well, this doesn't even merit being a case?
    Mr. DeCamp. Yes. If the facts don't indicate, you know, any 
kind of likelihood of a violation of laws that we can deal 
with, either because substantively there is no violation or we 
don't have coverage of the issue--I mean, it is important to 
keep in mind that about half of the work that day laborers 
perform, according to a UCLA study from 2006, is not covered by 
the Federal wage and hour laws because the employers are too 
small to be covered if they don't have $500,000 in annual 
volume, annual business volume.
    Mr. Kucinich. I am going to ask for the Freedom of 
Information response to be put in the record. Without 
objection.
    Mr. Issa. Mr. DeCamp, I want to pick up on the same line, 
because I think on this, this is a good example of the kind of 
bipartisan work that we need to do here.
    I am sure you would agree that if a 9-1-1 call comes in and 
someone says, well, you know, that is not actually an 
emergency, there is still a record of it?
    Mr. DeCamp. I am not familiar with 9-1-1 practices, but I 
am not going to dispute that.
    Mr. Issa. You would say that there should be, wouldn't you?
    Mr. DeCamp. I don't know.
    Mr. Issa. OK. Do your employees log their time and tell you 
what they are doing all day so that you can evaluate whether or 
not they are scurrying off, to use a technical term? 
[Laughter.]
    Mr. DeCamp. We use a different technical term.
    Mr. Issa. We are both Clevelanders, so this is a technical 
term we are used to.
    Mr. Kucinich. We understand those technical terms.
    Mr. DeCamp. Investigators do record their time.
    Mr. Issa. OK. So they record their time, so they tell you 
effectively, in some at least anecdotal way, the volume of 
calls that they are turning away, don't they?
    Mr. DeCamp. No.
    Mr. Issa. Well, let me ask it another way. Would it be too 
much trouble for them to, in fact, document those requests 
which do not rise to the level of your office's responsibility 
or authority?
    Mr. DeCamp. It depends on what we are talking about. For 
example, we get a lot of questions where somebody will call in, 
possibly a worker, possibly with a wage hour issue, possibly 
not, just asking questions. What is the minimum wage this year, 
or that kind of question. I don't think we document those 
calls. So it is hard to find, you know, the line as to when it 
becomes a case, but where we have facts that would indicate a 
likelihood of a violation, that is when that is recorded.
    Mr. Issa. Well, this is the Committee on Oversight and 
Government Reform.
    Mr. DeCamp. Right.
    Mr. Issa. So, looking at the other half of our hat for a 
moment, because sometimes oversight is of absolutely no value 
if we don't make changes substantively, would you please, on 
behalf of this committee's request, come back to us with a 
basic assessment, if you can't give it today, of what would it 
take to maintain a data base?
    I will put it in perspective. Mr. Kucinich and I do handle 
10,000 inquiries. Now, to be honest, both of us receive I would 
say almost the gaylords, if you know what that is, filled with 
faxes and little post cards that have particular issues on 
them, and we will receive hundreds or even thousands on a 
particular issue. They are all identical. It is important, it 
is critical for us, in order to make our decisions, to know how 
many people wanted us to add guns, take away guns, save lives, 
not save lives, believe in the death penalty, whatever it is, 
and every office in some way, shape, or form tasks their people 
to provide them with basic data reports, not the individual 
names of somebody who calls and says how much is the minimum 
wage and you say it is $8.50. You don't have to get the name, 
address, and phone number. You answered the question and you 
data base it.
    How hard would it be to be able to give us that kind of 
information if you can't give it to us today? And do you 
believe today that it is reasonable that, in fact, you maintain 
assessments, not only for your management, but for places like 
this, we can get some idea of why they are increasing your 
budget or your budget request is $16.7 million more. And what 
percentage increase is that, if I can ask?
    Mr. DeCamp. The percentage? I don't know the percentage. It 
is from $165 million to about $182 million.
    Mr. Issa. Well, 10-plus percent increase in 1 year.
    Mr. DeCamp. Approximately. Yes.
    Mr. Issa. OK. Would you give a 10-plus percent increase 
without knowing why, if you were sitting on this side of the 
dias?
    Mr. DeCamp. What I would submit is that what we are trying 
to do is carry out our enforcement mission. I would submit that 
the kind of information that you are talking about doesn't 
allow us to do that.
    Mr. Issa. I appreciate that, but we have to know where the 
33 people are that are so busy taking a huge amount of calls 
that you say aren't worth logging or us knowing what they are 
about because they are not enforceable.
    If you could see it from our standpoint, you haven't 
justified what your people are doing in light of the 
statistics. And, by the way, I am as empathetic as any Member 
would be that conditions were horrific, that your people were 
under a stress load, that they were getting a lot of calls, and 
that every factor that both you have said and the previous 
panel said existed. From our standpoint, sitting here today, 
looking to the future, this is not the last time a hurricane is 
going to hit in the south. It certainly is not the last time 
you are going to have a flood of illegal workers who are being 
abused by opportunistic day labor contractors.
    My time is expiring, but I want to give you a fair chance, 
tell us how the mistakes that clearly were made--you didn't 
come here to say they weren't made--and the opportunism that 
went on, not just because of the hurricane but because of how 
we handled the aftermath, how your office can tell us or give 
us an assurance that if a hurricane hit tomorrow that we 
wouldn't simply have a do-over of the exact same set of 
mistakes.
    Mr. DeCamp. We certainly did learn a number of lessons from 
the hurricane experience, and I think that the most important 
that we learned was that when this kind of disaster happens it 
can be a magnet for employers that are less likely to comply 
with the law and a magnet for day labor. Day labor, in 
particular, poses an extreme enforcement challenge for us, 
because enforcement tends to be blended with a lot of non-
covered work that is outside our jurisdiction. It is more 
difficult to find because it is geographically dispersed, and 
you are dealing with a lot of workers who will not complain to 
us. It makes it very difficult for us to do our job.
    We have done a lot of things to try to overcome those 
challenges, including outreach, including working with 
community groups, religious groups, churches--anybody who will 
help us get the message out to the workers that they should be 
willing to talk with us.
    In addition, we have learned of the importance of very 
early on evaluating, when we have a Government contract going 
on, and getting up the chain as far as we can as quickly as we 
can to identify the prime contractors and first-tier 
contractors, who are much more likely to be solvent, they are 
going to have cash, they are going to be able to make these 
wage payments, whereas a lot of the more fly by-night 
operations we see at lower tiers in the contracting chain don't 
have any cash and are not prepared to pay the workers, even 
though they are obligated to, even if the money on the contract 
hasn't flowed to them yet.
    Mr. Issa. My times has expired. I just want to followup 
with one thing that you could answer.
    Mr. Kucinich. Without objection, the gentleman is granted 
another 3 minutes.
    Mr. Issa. Thank you. Thank you very much, Mr. Chairman.
    If you don't have the information to add, I would 
appreciate a followup in writing.
    First of all, what is your statute of limitations typically 
on these violations?
    Mr. DeCamp. For Fair Labor Standards Act it is 2 years or 3 
years for a willful violation.
    Mr. Issa. OK. So, knowing that it is 3 years for willful, 
are you still pursuing willful violations today? If so, how 
many from the post-Katrina period?
    Mr. DeCamp. Let's see. We have over 430 hurricane-related 
cases that we have opened. We have closed approximately 
something north of 250 of those cases, so that leaves somewhere 
between 100 and 200 hurricane-related cases--and that includes 
New Orleans and the Gulf Coast more broadly--that are still 
underway.
    Mr. Issa. And do you have the resources today to ensure 
that the statute not end prior to your completing your 
investigations today? Are people going to get away with this 
simply because you can't get to them?
    Mr. DeCamp. It is important to remember that there was a 
lot of work that continued long after the hurricane happened, 
and so there is still hurricane recovery work going on now. 
That work is not subject to the statute tolling in the near 
future. We have certainly asked for more resources. I don't 
believe we have enough resources, and the President's budget 
request since 2004 has actually asked for more money than we 
have received each year since then. We are significantly under-
funded in 2007. The continuing resolution really hurt our 
hiring efforts, frankly, and made it difficult to replace even 
retiring staff. We need more resources, and we have asked for 
them in the pending budget request.
    Mr. Issa. OK. Last question. I thank the chairman for his 
indulgence.
    The $500,000 level, although we can all appreciate that is 
a relatively small business, if businesses go in and out of 
business on a monthly, twice a year, whatever, basis, or if 
they set up multiple entities in order to essentially never get 
big enough to be kept, do you have or should this committee 
author legislation to give you authority to reach down for 
willful violations for those who may have attempted to evade 
the system even if they are below $500,000?
    Mr. DeCamp. I would argue that we already have that 
authority. First of all, it is important to remember that on 
the Federal contracting side of things, Service Contract Act 
and Davis-Bacon Act, we don't have those kind of requirements. 
If you are a contractor and you have a covered contract, it 
doesn't matter what your dollar volume is, you are going to be 
covered and you are going to be obligated to pay the prevailing 
wages.
    On the FLSA side, if we can show that an employer has been, 
you know, manipulating corporate forms to get in and out of 
coverage and basically stay under the radar of $500,000 but is 
actually doing much more and it is a continuation of the same 
business, we could pursue theories of piercing the corporate 
veil and combining those entities. So I think that authority 
already exists.
    Mr. Issa. I appreciate that.
    The only reason I asked that one, Mr. Chairman, is that I 
had earlier heard that, in not taking so much data on some of 
these complaints called in, that some of them were by people 
who, in fact, worked for small companies that may not have been 
covered, so that is a concern that you could have people 
calling in and their company was a day laborer, but, in fact, 
if the authority exists to go after them, then knowing the size 
and scope of these calls that are being turned away may, in 
fact, be critical to the committee.
    Mr. Kucinich. Well thank you, Mr. Issa. If I may respond 
before we go to Ms. Watson here, one of the people who 
testified earlier said that ``even workers who did contact DOL 
WHD and were able to communicate with a staff person were often 
dismissed with a shallow, cursory review. Often their consumer 
polices were not even recorded by the Agency. The workers 
simply went away,'' which goes to the question that you are 
raising about perhaps the status of the day labor company, 
which is, you know, who knows if there is ever any chance for 
accountability.
    As we are hearing this testimony, see, the one thing about 
some of us who are in the Congress is we take this case work 
approach to things, so we really understand this. My career 
started 40 years ago. I got elected 38 years ago. I still have 
the records from 38 years ago of each and every call that came 
into my city council office and the disposition of it. I had a 
tickler file and I just would see if it was taken care of or 
not. So, you know, this is 2007. Hello? And you are visited 
by--granted, and I think everyone understands here that is must 
be extraordinary to have to take on these responsibilities. But 
you know what? A 10-percent increase in the budget, $185 
million, come on. I mean, you know, we need a little bit more.
    Ms. Watson.
    Ms. Watson. Mr. Chairman, I want to thank you for having 
this particular hearing. I am sorry I wasn't here when it 
started, because I have been highly concerned about New Orleans 
and its really benign neglect. During the midst of the crisis 
there were photo ops. I remember the President coming down and 
framed by the large Catholic church saying, whatever it takes, 
as much as it takes, we will see that flows into New Orleans. I 
am quite stressed. We have gone down twice. The feedback to me 
is that some of the areas in the great 9th, the houses are 
still standing. They have not been repaired or taken down and 
people have left and there is unemployment. The crime rate is 
up, and so on.
    The impact of that particular hurricane was just shocking, 
and I think the impact will continue, so I know people are 
dysfunctional and traumatized by the experience they went 
through, and so I am really pleased that we are trying to 
followup to see where we can make corrections along the way.
    If we are to be ready--and I constantly hear that it is all 
about Homeland Security--well, first test we really weren't 
ready to secure our own land. So the purpose of my questions 
will be to try to followup and see what went wrong and what do 
we need to correct, and is there too much bureaucracy. Are the 
current ordinances, laws, rules not clear enough? Can we move 
fast enough to be able to save lives and property?
    So it is my understanding that the New Orleans District 
Office staff--and that would be, I guess, your staff--lived in 
the community that was heavily damaged; is that correct?
    Mr. DeCamp. That is. Yes.
    Ms. Watson. Great. So how many members of this staff had 
their homes damaged or destroyed by the hurricane? Do you have 
any idea?
    Mr. DeCamp. I believe that in the New Orleans District 
Office proper it was all of them.
    Ms. Watson. All of them?
    Mr. DeCamp. They were all displaced.
    Ms. Watson. And all of them were at a hardship, and I know 
that several of us attempted to say that the repair, 
rebuilding, the removal of the destroyed homes should be done 
by local people who lived in the area, and we hear tell that 
crews were brought in from other countries below the border. I 
think Halliburton was in on some of that. I just think that we 
have really lost trust with the people that we are supposed to 
help.
    I know in that area, and as you said almost all of them had 
their homes destroyed by the hurricane, and many of the staff 
members have not returned home. Now, despite this hardship, I 
understand that no one was sent to help the staff do the job 
that they needed to do for 3 months. Am I tracking accurately?
    Mr. DeCamp. Well, two issues. First, I would want to note 
that all of the people who were displaced from New Orleans from 
our office, as well as from Biloxi, MS, have come back and were 
back with the agency, so I want to commend them and note that 
for the record.
    The second point is that a lot of help went to the New 
Orleans and Gulf Coast regions to assist the offices getting 
back on their feet. Almost immediately, as soon as we had 
office space we had additional staff from around the country 
that we put into the region, including Spanish-speaking 
individuals, because that language capacity was lacking on our 
staff in the region. It wasn't necessary before the hurricane 
because the demographics----
    Ms. Watson. Did it take over a year to get the Spanish-
speaking staff in place?
    Mr. DeCamp. No, no. What happened a year after was the 
hiring of employees in the New Orleans office who were Spanish-
speaking, but we were bringing Spanish-speaking people from 
other offices within the agency almost immediately, as soon as 
we had office space.
    It is important to note that because a lot of the work that 
was going on in the region was Government contracting work, and 
these are the most complex cases, it doesn't do a lot of good 
to put a brand new investigator into the mix and expect them to 
be able to handle those cases. Ordinarily we need investigators 
who have been experienced for 2 or 3 years and have gone 
through a second round of training to be able to handle those 
cases, so what we were mainly doing was bringing in experienced 
investigators from around the country, as well as experienced 
managers from around the country, to help in New Orleans and in 
the rest of the Gulf Coast because the cases were that complex.
    Ms. Watson. What would you suggest? I can understand the 
hardships. I represent Los Angeles, and we have a group called 
LA/LA--Louisiana/L.A. Many of the people from the great 9th 
came to Los Angeles, and we helped them there. We raised money. 
We housed them. We obtained clothing for them. And so I can 
understand what you are up against.
    What I am having difficulty with understanding is that a 
lot of the labor laws were suspended, Davis-Bacon Act and so 
on. I understand you need experienced people, but I can't 
understand almost 2 years now what has happened in the second 
year and why can't we then have a plan for operating and 
addressing and tracking complaints and the reports and all. Why 
are we still laboring under the confusion? Can you bring me up 
to date? What is the problem?
    Mr. DeCamp. Certainly. Thank you for the question. We have 
actually hired additional investigators in New Orleans on a 
permanent basis, as well as in Mississippi. We have brought in 
additional management staff. Currently we have postings out to 
hire additional people. We are looking, for example, to bring 
in on a long-term detail basis a senior investigator and a team 
leader into New Orleans.
    We recognize that what is going on is there is actually a 
much shrunken work force in New Orleans, but it has been a 
demographic shift. Right now the city is anywhere from 40 to 60 
percent below its pre-hurricane population level, so the work 
force is much smaller.
    Ms. Watson. They are all in Los Angeles.
    Mr. DeCamp. And Texas and a number of places, certainly. 
And so long term we don't think that there is going to be a 
need for a very large staff in New Orleans, so that is part of 
why we are trying to avoid over-staffing that office, in 
effect. We want to staff it now with a larger work force than 
it had before the hurricane, but not overly so. We think that 
the bulk of the problem will be in the next 2 to 5 years as 
this contracting and rebuilding scenario works its way through 
the system, and we think that it is kind of a temporary bubble 
now over the next 2 to 5 years, a significant bubble in terms 
of violations and in terms of workload in the Gulf Coast and in 
New Orleans, in particular. But that is why we are trying to 
address it without hiring permanent employees in New Orleans 
more so than the workload on a long-term basis will justify. We 
are trying to be more flexible, in other words, in how we staff 
the situation.
    Ms. Watson. You wouldn't consider training and retraining 
those people who lost property, who moved away, and we are 
pushing this come home, return home? You wouldn't consider 
wanting to train them and hire them permanently to give them 
work in their own home community and train them the way they 
should be trained so they can assist in rebuilding the 
devastated communities? Has that ever come up as a way to 
increase the number of employees that you are going to need?
    I am certain that we are going to have another hurricane, 
and particularly with the effect of global warming. It is going 
to happen again. How can we be ready? And how can we compensate 
the people who lost so much, lost their jobs, probably never be 
able to go back to those jobs, but maybe a work force that 
could be trained and to fill those slots, rather than looking 
for experienced people that would have to leave their current 
employment and come back to an area that could be devastated in 
the next few weeks?
    Mr. DeCamp. Well, that has actually been part of the 
challenge for the agency is finding people willing to work in 
New Orleans. That has been a challenge. We have posted job 
positions, and not necessarily--people who have jobs with wage 
hour in other parts of the country don't necessarily want to 
leave where they are and come to New Orleans. So to the extent 
we have positions available in New Orleans, the local work 
force, subject to all the rules that go with hiring Government 
employees, would certainly seem to be an option.
    Ms. Watson. It seems to me that the bureaucracy is one of 
the obstacles to rebuilding, and I would think for the 
particular needs of this Gulf Coast area that we would change 
some of the regulations, some of the policies.
    They were talking about a data base when I came in. If we 
had an accurate data base and we could seek out the people who 
lived in the area who could be potential trainees and 
employees, I think that might be one way. Find people who live 
there and might want to return.
    As you said, there are people living elsewhere, and they 
are doing much better living elsewhere than they would living 
at home, but I think there is something deep inside of us where 
we want to go home.
    I don't know, Mr. Chairman, if that data base you were 
talking about were a list of the people who needed help and are 
other places within the country, but I think an effort could be 
made on the part of the Department to locate these people and 
bring them in for training. I mean, you can train them exactly 
the way you need to so they can be there to face up and have 
the skills they need to face the next hurricane. There will be 
another.
    This is a suggestion and recommendation. I am sure I am 
just following in the tracks of our other Members. We want to 
be helpful, and not only to the Department but to the victims 
of that terrible hurricane. And we are all in a way victims. So 
I would suggest that we look at the rules, regulations, 
procedures that we had before, loosen them up, target people 
who lost their jobs, lost their homes, lost their incomes, and 
see if we can reach out to them, bring them back, train them 
the way they need to be trained.
    We learned a lot, I hope, since then, but I would never 
want to see another lame response that happened. You know, we 
are rushing around the world trying to help others and we can't 
even rebuild one of our historical cities. There is something 
wrong with that picture.
    So my suggestion is that, taking the questions that we are 
raising here, the concerns that we have here--I am connected by 
family to New Orleans, so I have a sensitivity about what is 
going on there--I would like to see our famous historical, 
unique city restored and the people having the option to come 
back and live a better life. That is just a word to you.
    Maybe we ought to put something in writing to the 
Department.
    Thank you so much for the time, Mr. Chairman.
    Mr. Kucinich. Listen, your presence here is imperative. I 
just want to say that, in line with increasing communication 
between this subcommittee and your division, I am going to ask 
staff of the majority and minority to work together in drafting 
a letter as a followup that would have the following elements: 
Taking from the concerns that were expressed by the previous 
panel, specifically the recommendations that were made, perhaps 
some of which you have already addressed, perhaps some of which 
you haven't, but I want to make sure that we take the letters, 
read over the letters from those that testified, look at the 
recommendations, incorporate them in a bipartisan letter to Mr. 
DeCamp, and then we will await your response as a way of 
continuing to engage here.
    The importance of having communication between us cannot be 
stressed strongly enough. For example, one of the things I want 
to enter into the record, without objection, is a letter from a 
Loyola Law Clinic intern who referred Jeffrey Steele's case to 
the Department of Labor, and I have an e-mail dated Thursday, 
February 22, 2007, where Vanessa Spinazolla, a student 
practitioner with Loyola Law Clinic's Workplace Justice Project 
wrote an e-mail to Barbara Hicks that pretty much outlines 
failure of the Department to act on this specific complaint. 
Without objection, that will go into the record.
    You will be given a chance to respond to that, as well.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.124
    
    Mr. Kucinich. I think that there is an issue here of 
whether the New Orleans staff could handle the case load after 
the hurricane. Were you able to or not? Was that an area that 
you just couldn't do it?
    Mr. DeCamp. The issue was that we didn't try to handle New 
Orleans with New Orleans staff, alone. We brought all the 
resources----
    Mr. Kucinich. OK. So you had staff. So here is my question. 
Take Mr. Steele's case, for example. Why hasn't it been 
concluded? I mean, he filed his claim with you in September 
2005. It is going to be a year now. I am sure he is not the 
only one. What is going on?
    Mr. DeCamp. First of all, I am not sure that he said 2005. 
I think he may have said 2006.
    Mr. Kucinich. OK. Let's say he said 2006. What is going on?
    Mr. DeCamp. The point is there is a pending case and we 
can't talk about, for enforcement reasons, the case that----
    Mr. Kucinich. Fine, but generally speaking in terms of 
these cases, isn't time of the essence?
    Mr. DeCamp. Yes, time is of the essence. And, more 
generally, what happens in some of these cases is that we get a 
complaint or we hear information involving one employee, and we 
end up looking at the employer more broadly because we think 
that the issues may affect not just that employee but other 
employees and the same employer.
    Mr. Kucinich. Is 5 months a long period of time to assign a 
case manager to a case?
    Mr. DeCamp. Not necessarily.
    Mr. Kucinich. Really?
    Mr. DeCamp. Depends on the nature of the case, and, again, 
in that case----
    Mr. Kucinich. Really?
    Mr. DeCamp. Depends on the case. Depends on the office. 
Depends on what is going on in the office.
    Mr. Kucinich. You know, that is interesting.
    Let me ask you this. Staff raises the question. That is why 
there are people whispering in my ears, by the way. What would 
cause this kind of a delay?
    Mr. DeCamp. Again, I can't comment on Mr.----
    Mr. Kucinich. I am not asking you about a specific case. 
Let's speak generally.
    Mr. DeCamp. Speaking generally----
    Mr. Kucinich. Generally, what would cause a delay of 5 
months?
    Mr. DeCamp. If, for example, we are already looking at that 
employer, we are already investigating that employer in a case 
that might encompass that employee already, that employee's 
individual complaint might not get a high priority in terms of 
being assigned because those rights are already in play, they 
are already being investigated.
    Mr. Kucinich. Let me ask you something. I know no one here 
needs to be reminded that you are under oath. I won't do that. 
But I will ask you: have you ever been told not to pursue a 
case at any time in any way whatsoever by any superior?
    Mr. DeCamp. Absolutely no.
    Mr. Kucinich. Mr. Passantino.
    Mr. Passantino. No.
    Mr. Kucinich. Dr. Carlson.
    Mr. Carlson. Absolutely not.
    Mr. Kucinich. I know you don't want to talk about an 
individual case, and I will respect that, but if someone is not 
assigned to a case it is not a case; is that right?
    Mr. DeCamp. If there is a possible pending investigation we 
are not going to discuss it.
    Mr. Kucinich. If someone is not assigned to a case, is it a 
case? Just like, you know, you don't keep records of certain 
things because----
    Mr. DeCamp. If a complaint has been registered, then there 
is a pending case, and if it hasn't been assigned to an 
investigator yet, there is still a pending case and we can't 
talk about it.
    Mr. Kucinich. If you can't talk about a pending case----
    Mr. DeCamp. Yes.
    Mr. Kucinich [continuing]. Is a case a pending case if you 
didn't even begin an investigation?
    Mr. DeCamp. If a complaint has been registered, yes.
    Mr. Kucinich. OK. Now, I understand that you believe that 
an impediment to workers complaining to the DOL is the fact 
they don't trust you as a Government agency because they fear 
deportation; is that true?
    Mr. DeCamp. For undocumented workers, yes.
    Mr. Kucinich. And did you think about approaching community 
organizations that did establish trust with the workers in 
order to gain their trust?
    Mr. DeCamp. Absolutely. We did extensive outreach. In fact, 
I would like to submit for the record, with your permission, a 
document that outlines in great detail all of the efforts we 
had----
    Mr. Kucinich. Without objection, we would like to have it.
    Would you like to describe it just a little bit?
    Mr. DeCamp. Certainly. It is 10 pages.
    Mr. Kucinich. Just give me a caption.
    Mr. DeCamp. Sure. We talked about the outreach that we had 
with particular churches, with particular community 
organizations.
    Mr. Kucinich. Can you give me any names?
    Mr. DeCamp. Sure. For example, we worked with the Hispanic 
Apostolate, the Archdiocese of New Orleans. We worked with the 
Lantern Light Ministry in New Orleans. We worked with the 
Workplace Justice Clinic of Loyola University School of Law; 
Our Lady of Fatima Church in Biloxi, MS; the Good News Camp in 
New Orleans; Mexican consulates in Atlanta and Houston; Katrina 
Aid Today; McDonald's; FEMA; U.S. Army Corps of Engineers; the 
Small Business Administration, and many others that are 
discussed at length in the document.
    Mr. Kucinich. Did you work with the Loyola Law Clinic?
    Mr. DeCamp. Yes.
    Mr. Kucinich. Did you work with Luz Molina?
    Mr. DeCamp. Yes.
    Mr. Kucinich. I wondered about that. We haven't had a 
chance to go back over the list since you are just submitting 
this for the record, but I just wanted to share something with 
you, and maybe you could respond.
    My staff followed up with Luz Molina about the 
collaborative relationship with her, and we asked her to submit 
her recollection of the relationship that she had in writing. I 
have a statement here and we will enter it into the record, but 
I wanted to read for our purposes an excerpt from it.
    Here is what it says: ``After the initial efforts by the 
Department of Labor reach out to the WPJP--'' that is the 
Workplace Justice Project--``after these efforts were 
essentially exhausted, there was no further meaningful 
collaboration. I would have truly appreciated the opportunity 
to develop a strong relationship with the Department of Labor. 
Such relationships would have been a good way to finally reach 
out to the community of workers long term and thus maintain a 
relationship with the community of clients most conducive to 
effectively addressing their claims. However, the DOL, 
especially at the national level, offered no such opportunity, 
and to my knowledge has taken no steps to develop and keep 
these relationships open long term.
    ``More than anything else, we would have welcomed a strong 
statement from DOL to the effect that `we want to meet with 
your clients and take on their cases.' At a time when labor 
enforcement resources were and still are nearly nonexistent, 
such a gesture would have gone a long way to establish their 
presence as an enforcement agency in the area. The absence of 
such opportunities was a big disappointment.''
    Would you say that this is an exception rather than the 
rule in terms of your relationships?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.125
    
    [GRAPHIC] [TIFF OMITTED] T1702.126
    
    [GRAPHIC] [TIFF OMITTED] T1702.127
    
    [GRAPHIC] [TIFF OMITTED] T1702.128
    
    Mr. DeCamp. It is certainly my hope that is an exception 
and in my experience that is an exception.
    Mr. Kucinich. Would you be willing to find a way to 
determine how it was that someone could have this kind of an 
assessment and perhaps learn to see if there is anything that 
could be done to----
    Mr. DeCamp. I would be happy to meet with Ms. Molina at her 
convenience.
    Mr. Kucinich. OK. Great.
    Let's see. I just have one other area I want to cover. This 
is for Dr. Carlson. Thanks for being here. Can you comment on 
what you have done to investigate the case of Matt Redd?
    Mr. Carlson. Yes, I can, and thank you for the opportunity 
to be here.
    I probably should draw a distinction before I comment on 
that, that my office is separate and apart from Mr. DeCamp's, 
and I have no specific investigative authority other than 
reviewing an application which is filed with us on its merits.
    Mr. Kucinich. Is there an investigation going on?
    Mr. Carlson. I have no investigative authority.
    Mr. Kucinich. Mr. DeCamp.
    Mr. DeCamp. The Wage and Hour Division, under the statute, 
under the Immigration and Nationality Act, section 214(c)(14) 
does not have authority. The statute assigns investigative 
authority under the H2-B program to the Department of Homeland 
Security.
    Mr. Kucinich. So Homeland Security is the one that would be 
able to answer that; is that right? Do you know, though, if 
there has been any progress at all?
    Mr. DeCamp. You would have to ask the Department of 
Homeland Security.
    Mr. Kucinich. So you are saying this is really outside your 
jurisdiction; is that right?
    Mr. DeCamp. Yes.
    Mr. Carlson. Yes.
    Mr. Kucinich. Did you know anything about it? Can you 
enlighten us? Could you share with us anything? Do you know 
anything about the case of Matt Redd?
    Mr. Carlson. I can tell you that we looked in our data base 
for that name and found no applications that were filed 
specifically in his name.
    Mr. Kucinich. Well, wasn't there something about wage theft 
involved? Do you look into cases involving wage theft?
    Mr. DeCamp. Well, with wage theft, again, it is important 
to understand that is an imprecise term that does not 
necessarily spell out a violation of any of our laws. It may 
include a violation of somebody's rights, but not necessarily 
rights that are within the jurisdiction of the Wage and Hour 
Division if our statutes don't apply or if----
    Mr. Kucinich. But isn't the Fair Labor Standards Act, if I 
may, Mr. DeCamp, you have jurisdiction over Fair Labor 
Standards Act?
    Mr. DeCamp. Yes.
    Mr. Kucinich. Weren't you notified that Mr. Redd was in 
violation of Fair Labor Standards Act, at least since February 
15, 2007?
    Mr. DeCamp. To my knowledge we have not received any 
information on----
    Mr. Kucinich. You have not received any notification of 
that?
    Mr. DeCamp. To my knowledge.
    Mr. Kucinich. You don't have any awareness of that at all? 
Is that what you are telling this subcommittee?
    Mr. DeCamp. My understanding is we do not have any active 
case involving Mr. Redd.
    Mr. Kucinich. So----
    Mr. DeCamp. It is important to keep in mind that Mr. Redd, 
at least according to the media reports--and we are certainly 
aware of what has been reported publicly--is what would be 
called a labor contractor rather than an employer, at least by 
all of the information that we have seen. We see this in the 
H1-B context, as well. We also see it in the agriculture 
context. These are people who are not necessarily employing 
people, but they are funneling people from other countries and, 
you know, connecting them with employers in the country. Our 
laws don't necessarily apply to them in terms of the Wage and 
Hour Division's laws, but there may be laws that do apply, 
including the H2-B statute that is outside our jurisdiction 
under the statute.
    Mr. Kucinich. What about, you know, Mr. Redd? Let's talk 
about his business, LA Labor, LLC. This is the business that is 
the formal name of the employer owned by Matt Redd, so in the 
interest of absolute clarity what about LA Labor, LLC? Are we 
talking about any notice of a violation of Fair Labor Standards 
Act?
    Mr. DeCamp. I don't believe that we have checked our 
records for that entity. We checked for Matthew Redd.
    Mr. Kucinich. Are you aware of this protest in front of the 
Department of Labor to try to get someone to begin an 
investigation of this employer?
    Mr. DeCamp. I am not, other than what has been said today.
    Mr. Kucinich. And you said that no one has ever told you 
don't investigate anyone or don't look at this?
    Mr. DeCamp. That is correct.
    Mr. Kucinich. Because you don't work that way?
    Mr. DeCamp. That is correct.
    Mr. Kucinich. OK. We have, you know, will. Have you been 
presented with information about LA Labor, LLC, which Mr. Redd 
apparently runs? Are you aware of it? Has it ever been brought 
to your attention in any official capacity?
    Mr. DeCamp. Only listening to your remarks in the past few 
minutes here.
    Mr. Kucinich. Really?
    Mr. DeCamp. Yes.
    Mr. Kucinich. But didn't you say something that you heard 
some news accounts, you know? I would just like to enter into 
the record, you know, like I can't tell you that I am aware of 
everything that is on the media about what is going on in 
Congress because, like my dear colleague here, it is quite 
possible you could hear a report a few days later relating to 
some action that you weren't aware of, so I will take it that 
is possible, but there was a report on Channel 7, KPLC, out 
of--what city is that?
    Staff. New Orleans.
    Mr. Kucinich [continuing]. New Orleans by Teresa Schmitt, 
headlined, ``Mexican Workers Protest Company.'' Katrina 
survivors and immigrant workers unite to arrest slave owner. 
This is what it says in this article. What I would like to do 
is submit this whole package and the interpretation, without 
objection, to the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.129
    
    [GRAPHIC] [TIFF OMITTED] T1702.130
    
    [GRAPHIC] [TIFF OMITTED] T1702.131
    
    [GRAPHIC] [TIFF OMITTED] T1702.132
    
    [GRAPHIC] [TIFF OMITTED] T1702.133
    
    [GRAPHIC] [TIFF OMITTED] T1702.134
    
    [GRAPHIC] [TIFF OMITTED] T1702.135
    
    [GRAPHIC] [TIFF OMITTED] T1702.136
    
    [GRAPHIC] [TIFF OMITTED] T1702.137
    
    [GRAPHIC] [TIFF OMITTED] T1702.138
    
    [GRAPHIC] [TIFF OMITTED] T1702.139
    
    [GRAPHIC] [TIFF OMITTED] T1702.140
    
    [GRAPHIC] [TIFF OMITTED] T1702.141
    
    Mr. Kucinich. This is the first time you have heard of 
this?
    Mr. DeCamp. I have heard of Matthew Redd before, but not 
the protest or not the name of----
    Mr. Kucinich. But the case, have you heard about this case, 
though? Do you know about the case?
    Mr. DeCamp. I don't know what case you are talking about, 
sir. Are you talking about an investigation of----
    Mr. Kucinich. An investigation of someone willfully 
misrepresenting a business and labor certification for guest 
workers, someone who is said to have violated the Fair Labor 
Standards Act. Has anybody ever said anything? Do you have any 
complaint about this?
    Mr. DeCamp. All that I have heard about with Matthew Redd 
or any business that he owns, as far as I know, would be 
arguable violations of the H2-B worker program, which would be 
outside the jurisdiction of our Department. However, we do 
enforce all of the other laws that apply to the H2-B workers 
under the Fair Labor Standards Act.
    Mr. Kucinich. Does it concern you to know that there was a 
protest in front of the office in New Orleans relative to what 
has been charged as to be lack of enforcement in this case?
    Mr. DeCamp. I wouldn't say that would concern or not 
concern me. It is information. People have the right to----
    Mr. Kucinich. Do you act on such information? Do you hear 
that? I mean, I am chairman of this Domestic Policy 
Subcommittee. I am calling this to your attention right now. 
Are you willing to investigate this case relating to LA Labor, 
LLC, and Mr. Redd, who apparently, and I use the word 
apparently, allegedly, has violated the Fair Labor Standards 
Act and certain other provisions of labor law? Will you look 
into it?
    Mr. DeCamp. I will certainly consider it and pass the 
information on to the field managers who can make a better 
decision about----
    Mr. Kucinich. I would like you to report back. Listen, if 
there is not a case there is not a case, and if there is not a 
case after your careful determination, then I have to accept 
that. But if there is a case and it has been called to your 
attention, then you have to accept that. So let's follow this 
line, please.
    Mr. DeCamp. And, Mr. Chairman, I would note that we 
frequently initiate cases based on media reports across the 
wide range of our----
    Mr. Kucinich. I get involved in things based on media 
reports. I mean, that is the nature of our business here. But I 
am calling to your attention a media report that I read. I 
didn't see it. I didn't experience it, but I read it and I want 
to make sure that we present this. We are also going to be, 
just so you understand, we are also going to be notifying the 
Inspector General of this discussion, as well. You know, I 
think and I believe that you are making a good faith effort 
coming in front of this committee. I really believe that. But I 
also know that there are certain things here that don't really 
jive. My ranking member pointed it out. Just a feel of this, 
there is something wrong.
    Now, you can have this avalanche of work activity and 
responsibilities that probably few agencies really have in the 
way that you have. But you know what? We just want to make sure 
that nothing falls through the cracks here, and so we are going 
to be in touch with the Department of Labor's Office of 
Inspector General to request an investigation of whether Mr. 
Reed willfully misrepresented his business and labor 
certification process, but, in addition to that, this goes 
outside of, you know, that is their responsibility. We are 
passing this on to you right now. It is a matter of record.
    I want to thank my colleague. Do you have any followup at 
all before we go to the next panel?
    Ms. Watson. Mr. Chairman, would you yield?
    Mr. Kucinich. I will yield to the gentlelady.
    Ms. Watson. I would hope that, as a result of this hearing, 
that we will take a CoDel down and go through the offices after 
we receive back from your response to the letters that the 
Chair had suggested. I would like to have a CoDel--
congressional delegation--come down and walk through your 
offices, address your response, and allow us to ask questions, 
because there is conflict of information coming through my ears 
from back here, and these are the people who do the 
investigations for us. They are showing us information by the 
second of what they saw on TV, the investigation, and so on.
    I am suggesting, Mr. Chairman, that we take a CoDel down an 
appropriate amount of time, go through their offices, raise the 
question, see if they have addressed some of the procedures 
that have really, I think, violated the rights of workers in 
the labor process, as a followup.
    Mr. Kucinich. What I will do is I will council with my 
minority leader of this committee, and we will get together and 
have a meeting on this. I am certainly responsive to that 
request.
    Ms. Watson. We could be hands-on.
    Mr. Kucinich. I think it is a great idea. Just so you know, 
we are going to get to know each other a little bit more. I 
think to have the support of Mr. Issa here is absolutely 
critical, so let me speak to him and see if we can proceed. I 
would like you to be involved in intelligence, as well, because 
of your initiative here.
    I want to go back to this Department of Labor Office of the 
Inspector General. Will the DOL's Office of the Inspector 
General investigate whether Mr. Redd willfully misrepresented 
his business in the labor certification process?
    Mr. DeCamp. I am not sure whether that is their 
jurisdiction or Homeland Security's IG's jurisdiction, but----
    Mr. Kucinich. Are you saying you don't have any 
jurisdiction?
    Mr. DeCamp. We don't have jurisdiction over fraud in the 
certification process, yes.
    Mr. Kucinich. Well, according to the semiannual report to 
the Congress from the Office of the Inspector General of the 
Department of Labor for the 6-month period ending on March 31, 
2007, the Office of the Inspector General describes its work as 
including investigations of fraudulent applications filed with 
the DOL. In some cases, the Office of the Inspector General 
conducts joint investigations with ICE. So the Office of the 
Inspector General does have the authority to conduct an 
investigation as to whether or not there is fraud involved, 
does it not?
    Mr. DeCamp. I have no knowledge one way or the other. I am 
not disputing what you are reading there. I simply----
    Mr. Kucinich. Well, I am going to ask staff to provide you 
with a copy of this report for 6-month period ending March 31, 
2007.
    Let's include this in the record, without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.142
    
    [GRAPHIC] [TIFF OMITTED] T1702.143
    
    [GRAPHIC] [TIFF OMITTED] T1702.144
    
    [GRAPHIC] [TIFF OMITTED] T1702.145
    
    [GRAPHIC] [TIFF OMITTED] T1702.146
    
    [GRAPHIC] [TIFF OMITTED] T1702.147
    
    [GRAPHIC] [TIFF OMITTED] T1702.148
    
    [GRAPHIC] [TIFF OMITTED] T1702.149
    
    [GRAPHIC] [TIFF OMITTED] T1702.150
    
    [GRAPHIC] [TIFF OMITTED] T1702.151
    
    Mr. Kucinich. I also think it would be helpful to Mr. 
DeCamp if you could make a copy of this right now. Can we do 
that?
    Staff. Yes.
    Mr. Kucinich. Let's make a copy.
    Mr. Carlson. Mr. Chairman, if I may, I can speak for the 
Employment and Training Administration with respect to the 
semi-annual report from our OIG. Our office routinely 
participates in fraud investigations across the broad spectrum 
of employment-based immigration programs with regard to fraud.
    Mr. Kucinich. If someone misrepresents their business in 
the labor certification process for guest workers then, can 
that person be debarred from Labor certification for up to 3 
years? And would that come under your jurisdiction?
    Mr. Carlson. My office has no debarment authority. Again, I 
would defer to Mr. DeCamp----
    Mr. Kucinich. Mr. DeCamp.
    Mr. Carlson [continuing]. About Homeland Security.
    Mr. Kucinich. Mr. DeCamp.
    Mr. DeCamp. The Wage and Hour Division has no enforcement 
authority under the H2-B program.
    Mr. Kucinich. So only DHS has that authority?
    Mr. DeCamp. That is my understanding.
    Mr. Kucinich. And so you only have the authority to debar 
employers who sponsor H1-B and H2-B visas; is that right?
    Mr. Carlson. My office can debar H2-A employers.
    Mr. Kucinich. OK, H2-A.
    Mr. Carlson. The agriculture program.
    Mr. Kucinich. OK. What about H1-B?
    Mr. DeCamp. I believe the Wage and Hour Division would----
    Mr. Kucinich. Wage and Hour can do that, right?
    Mr. DeCamp [continuing]. Would proceed debarment of H1-B.
    Mr. Kucinich. OK. I have a list of employers who sponsored 
H1-B visas. This is a list here which I submit for the record 
of H1-B employers who have been debarred.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.152
    
    [GRAPHIC] [TIFF OMITTED] T1702.153
    
    [GRAPHIC] [TIFF OMITTED] T1702.154
    
    [GRAPHIC] [TIFF OMITTED] T1702.155
    
    Mr. Kucinich. It is actually quite a lengthy list.
    Mr. DeCamp. We have an active enforcement program.
    Mr. Kucinich. So there is enforcement. This list is on the 
Department of Labor's Web site, as you are aware.
    Now, doesn't it make sense that you would have the 
authority, and you just said you can debar H2-B.
    Mr. DeCamp. H2-A and H1-B, between the two----
    Mr. Kucinich. H1-B. What about H2-B? Doesn't it make sense 
you would have the ability to debar H2-B?
    Mr. DeCamp. It is the statute. The statute is what it is. 
It is for Congress to decide what the statute is. We enforce--
--
    Mr. Kucinich. Does that make sense to you?
    Mr. DeCamp. There are a lot of statutes that don't 
necessarily make sense. We do our best.
    Mr. Kucinich. Are you familiar with the Department of Labor 
proposed rule for post-adjudication audits of H2-B petitions in 
all occupations other than excepted occupations in the United 
States, 70 Federal Register, 3393-205?
    Mr. Carlson. Yes, sir.
    Mr. Kucinich. And have you ever followed up on these 
proposed regulations?
    Mr. Carlson. My office issued a notice of proposed 
rulemaking that you reference there. We received extensive 
comments, many in opposition to the proposed rulemaking, which, 
as you all probably know, included a proposed debarment 
authority in H2-B. We are still in the process of analyzing 
those with our counsel's office to see whether we can go 
forward with our final----
    Mr. Kucinich. Is it your understanding that the statute 
permits the Secretary of Homeland Security to delegate 
administrative penalties to the Secretary of Labor with the 
agreement of the Secretary of Labor to undertake this 
authority?
    Mr. Carlson. That is my understanding.
    Mr. Kucinich. And if the DHS can delegate this authority to 
you, and you are in the best position to assess employer 
violations, then have you approached the DHS to delegate this 
authority to you, Mr. DeCamp?
    Mr. DeCamp. My understanding is there have been discussions 
about that.
    Mr. Kucinich. And if I understand correctly, your proposed 
regulations in 2005 to have greater authority over H2-B visas 
in 2005 is rendered moot after the passage of Save our Small 
and Seasonal Businesses Act. This new act gave the DHS the 
ability to delegate authority to you. You say you are following 
up. You know that the state of non-agricultural guest workers 
is rife with labor exploitation and fraud, so are you following 
that up with that in mind?
    Mr. DeCamp. My understanding, as I said, is that there have 
been discussions that did not result in a delegation of 
authority from----
    Mr. Kucinich. Say that again.
    Mr. DeCamp. My understanding is that there have been 
discussions, but that those discussions did not result in a 
delegation of authority from Homeland Security to Labor on the 
H2-B enforcement.
    Mr. Kucinich. So what's the enforcement then?
    Mr. DeCamp. That is with Homeland Security.
    Mr. Kucinich. Are you still having discussions now? Are 
there serious discussions about you assuming the authority, or 
are you just not interested in that, you are letting them drop? 
What is it?
    Mr. DeCamp. My understanding is that there were discussions 
that did not result in a delegation of authority.
    Mr. Kucinich. OK. Well, we can followup on that.
    Honorable Congressman, do you want to ask any more 
questions? I am done.
    Ms. Watson. You are going to followup on the last point?
    Mr. Kucinich. Yes.
    Ms. Watson. OK.
    Mr. Kucinich. OK. I want to thank each of you for being 
here. We could not have held this hearing without your 
participation, and we are going to need your help in order to 
keep trying to find a way to make this system work. And it is 
in that spirit we are going to proceed here, and the 
communications with this committee and with you will be in the 
spirit of trying to find a way to make this work better. These 
hearings are not gotcha hearings, but wherever there is a loose 
string or a loose matter such as the LA Labor, LLC, we want to 
find out what is going on there.
    Again, I trust your integrity. We need your cooperation. 
Thank you.
    We will go to the next panel.
    Mr. DeCamp. Thank you.
    Mr. Kucinich. Mr. DeCamp, I just want you to know this is 
going on the record, so thank you.
    We are momentarily going to move to the third panel.
    While we are getting ready, I want to thank the members of 
the third panel for hanging in here for 2\1/2\ hours. As you 
see, this subcommittee takes these things very seriously. We go 
into them in depth because the people of New Orleans and people 
of this country deserve no less.
    I would like to begin by making an introduction of both of 
the panelists.
    Tracie Washington is founder and director of the Louisiana 
Justice Institute. This Institute was founded in April 2007 as 
a nonprofit public interest legal advocacy group focusing on 
the Gulf Coast. A native of New Orleans, Ms. Washington owned 
her own civil legal practice focusing on employment, labor, and 
education issues for 16 years before Hurricane Katrina forced 
Ms. Washington to evacuate with her son to Texas.
    Ms. Washington returned to New Orleans in December 2005, 
and she now represents Katrina survivors in a wide spectrum of 
cases, from education to housing to voter rights.
    Welcome.
    Ms. Washington. Thank you.
    Mr. Kucinich. Also Ms. Catherine Ruckelshaus is a 
litigation director at the National Employment Law Project in 
New York City. Her primary areas of expertise on behalf of 
lower-wage workers are the labor and employment rights of 
contingent workers, immigrants, and workfare participants.
    Among recent cases, Ms. Ruckelshaus was lead counsel in a 
landmark case, Lopez v. Silverman, which established for the 
first time that a garment manufacturer was liable for the 
sweatshop conditions of its subcontractors. It was a very 
important case.
    At this point I would ask both of the panelists to please 
rise. It is the custom of our committee and our subcommittee to 
swear in witnesses. We would ask you to raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. I thank you. Let the record show that both 
witnesses answered in the affirmative.
    As with the first and second panel, we ask that you give an 
oral summary of your testimony and keep the summary under 5 
minutes in duration. I want you to bear in mind that your 
complete written statement will be included in the hearing 
record.
    Ms. Washington, let's begin with you. Welcome. We 
appreciate it.

 STATEMENTS OF TRACIE WASHINGTON, PRESIDENT AND CEO, LOUISIANA 
   JUSTICE INSTITUTE; AND CATHERINE RUCKELSHAUS, LITIGATION 
           DIRECTOR, NATIONAL EMPLOYMENT LAW PROJECT

                 STATEMENT OF TRACIE WASHINGTON

    Ms. Washington. Thank you so much. I want to thank you for 
this opportunity to meet with Congress to discuss the impact of 
immigrant labor on the ability of African Americans to 
participate in the labor market post-Katrina.
    You have my statement. I will speak a little bit from this, 
but much of what I was about to testify to this afternoon you 
have heard, but I want to place particular emphasis on the 
impact of immigrant labor on African American workers in New 
Orleans and what DOL has failed to do and what it could do, 
first of all, to enhance what was miserable employment 
opportunity prospects, conditions for African American workers 
prior to Hurricane Katrina, and what post-Katrina had been 
abysmal, often slave-like conditions for immigrant workers.
    I decided when I was asked to come and testify to not 
really talk from my perspective as an attorney first, but to 
tell you about some of what I hear on a day-to-day basis in my 
practice and what came in through the NAACP and now through the 
Louisiana Justice Institute, some of those frustrations.
    From the employer perspective, especially on the 
construction front, what you hear oftentimes are stories like 
that of Raymond Rock, Ray Rock, who owns with a partner a 
construction company in New Orleans. Even prior to Hurricane 
Katrina, Ray is a master carpenter. He has taught carpentry. He 
has been doing this type of work for, you know, decades.
    Post Hurricane Katrina, when we had been promised so much 
growth and expansion beyond our wildest dreams in New Orleans, 
our master construction workers really believed that it was 
going to be a renaissance time in New Orleans. But they didn't 
find that. What they found was the inability to really compete 
for good construction work because the market and prices and 
what they could bid and get for jobs--I outline that a little 
bit here in the paper--has been driven down so dramatically by 
immigrant labor, but by the unwillingness of employers to pay 
immigrant workers living wages.
    We see on the side of employees, and I recount the story, a 
representative story of one of my clients who is a public 
housing resident, former public housing resident in New Orleans 
who worked in the hospitality industry, hotel industry, for 
over 20 years prior to Hurricane Katrina.
    I think you heard from Saket Soni some of the stories, and 
Ms. Price's story is no different. She came back to the city of 
New Orleans after Hurricane Katrina, thought she could get her 
job back in the hotel, was offered her job. But guess what? She 
wasn't offered any place to live. Well, the cost of housing in 
New Orleans has skyrocketed so much that she couldn't afford to 
work, but immigrant workers were being offered housing--housing 
with abysmal conditions in many instances, but still housing. 
So she was displaced, and in that assessment by immigrant 
workers.
    So we are often asked what is the problem. Is there a 
conflict? Is there tension between African American workers and 
immigrant workers? What is going on in New Orleans, Tracie? You 
know, what has been the effect of the immigrant work force on 
African American labor? Well, we can't sugar-coat it. We can't 
say there has been no effect and sort of live like we are in a 
la-la world. But what we don't want to do, and we have worked 
really hard as activism advocates to work with our clients and 
within the community to understand is it is not the fault of 
immigrant workers that you cannot get living wage work in the 
city of New Orleans. We have more than enough work to go 
around. The problem is greedy employers, immoral employers 
oftentimes, who will not abide by the laws concerning the 
payment of wages, the payment of overtime, the payment of 
prevailing wages, in many cases.
    So that factor, unfortunately, drives down the standard of 
living for the African American workers. They can't come home 
and work for $5 an hour or risk being told that they are going 
to make $100 a day only after 30 days to be told, Psych, we are 
not paying you anything, which often happens with the immigrant 
workers. Or my experience when I first came home and started 
doing this work, you know, when payday came for immigrant 
workers they weren't greeted by checks; they were greeted by 
ICE--Immigrations and Customs Enforcement. That was your every-
two-week pay call.
    So what do we do? That is really what I want to focus on. 
We know what the problems are. What do we do?
    We have to understand that we have to bridge the gap 
between black and Latino workers, providing the necessary 
skills to end divisive struggles over low-quality jobs. We can 
no longer have companies with open positions and no training 
systems in place, and what we most certainly cannot do is fight 
each other over the chance to get $5.15 an hour to clean 
somebody's toilet. We can fight with each other to ensure that 
job pays $15 an hour, but fighting each other for $5.15 when 
the employer is getting ridiculously rich doesn't make a lot of 
sense.
    We know that the Department of Labor--and you have heard 
this, and you heard the responses from the Wage and Hour 
representatives--they have failed miserably in enforcement. 
That is just the bottom line. I don't want to sugar-coat that 
either, and nobody should allow that to happen.
    If they need more money, let's get them some more money. If 
they need more investigators, fine, get some more 
investigators. But at the end of the day you can't say that 
now, some 2 years after Katrina--you know, it is very difficult 
for us as advocates to sit and listen to folks whine about, 
well, we have been trying to get this money for a long time. As 
an attorney who practices labor and employment law, I know that 
next year that statute of limitations is over. These folks are 
not going to have a chance to do anything.
    DOL can also be proactive. It can be proactive in reaching 
out to the community with advocacy groups such as LGI, such as 
Southern Poverty Law Center, such as the Workers Center, to 
help with job reforms in this community, working to improve 
wages, benefits, and working conditions in New Orleans.
    Let's be a little creative. If you knew that you didn't 
have enough Spanish-speaking people in the city of New Orleans 
to do something at the Department of Labor, we have more than 
enough Spanish-speaking people. Obviously the Spanish-speaking 
people who have problems can come in and speak Spanish. That is 
just stupid. I am sorry.
    Let's work on education and training. Over the next few 
years we know we are going to see an incredible amount of jobs 
opening up in New Orleans for infrastructure and construction 
as construction takes off. Sure, we know some of these jobs, 
many of these jobs are going to require college education, but 
most of them will not. We don't need to have people fighting at 
the margins for jobs in the secondary market when the 
Department of Labor can be creative with its funding and work 
with nonprofit organizations and other organizations to move 
people out of these jobs very low at the margins and bring 
people up and help develop a community. That is what President 
Bush said he wanted to do. That is what we are waiting for.
    Finally, one of the things I heard often from the skilled 
trades folks that I spoke with about this testimony is they 
said--and most of them know me from the community. I was born 
and raised in New Orleans--Tracie, we need to do more to have 
an African American workers center so we can join together and 
organize even among the model that we have had in the immigrant 
worker community. And DOL can help with that, as well. It may 
be on the margins of what they do. It may not be principally 
what happens with the Department of Labor, but the Department 
of Labor, again, can be creative and assist in those efforts.
    Thank you.
    [The prepared statement of Ms. Washington follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.156
    
    [GRAPHIC] [TIFF OMITTED] T1702.157
    
    [GRAPHIC] [TIFF OMITTED] T1702.158
    
    [GRAPHIC] [TIFF OMITTED] T1702.159
    
    [GRAPHIC] [TIFF OMITTED] T1702.160
    
    Mr. Kucinich. Thank you very much.
    Ms. Ruckelshaus.

               STATEMENT OF CATHERINE RUCKELSHAUS

    Ms. Ruckelshaus. Mr. Chairman and members of the committee, 
thank you for the opportunity to testify today.
    My name is Cathy Ruckelshaus, and I am the litigation 
director for the National Employment Law Project. As you 
mentioned, we are a national nonprofit and used to be a legal 
services organization that promotes good jobs for low-income 
workers.
    In the last half of my 20 years of working with low-wage 
workers around the country, we have lost a partner in the 
Department of Labor. Not too long ago, DOL initiated strategic 
programs to combat the worst workplace abuses, but in recent 
years it has stepped out of the picture when it comes to 
enforcing basic standards.
    At NELP we have had the opportunity to learn about job 
conditions in industries such as agriculture, construction, and 
day labor, garment, meat packing, janitorial, and domestic 
work. We have seen sub-minimum wage pay, lack of health and 
safety protections, and rampant discrimination.
    My testimony today urges that we reinvigorate DOL's 
commitment to workers' rights and that we use this low point to 
bring it back.
    In New Orleans, a recent and extreme microcosm of what goes 
on around the country, firms have used time-honored cost-
cutting tactics that are common around the country. They hide 
behind subcontractors. They call workers independent 
contractors and then look for immigrant workers who are 
vulnerable to exploitation.
    Workers whose rights are being evaded urgently need DOL to 
step in. In Louisiana, Mississippi, and Alabama there are no 
State agencies in charge of fair pay because the States have no 
State minimum wage law.
    Private attorneys, except for Tracie, often will not or 
cannot take low-wage worker cases. The DOL is really their only 
option. However, while the number of businesses covered by the 
labor laws has expanded recently, DOL's activities have 
decreased. They only have 788 investigators for the entire 
country. The number of actions they have brought has decreased 
by 36 percent.
    More disturbingly, the agency has, in a number of 
instances, used these dwindling resources to intervene on the 
side of employers in ongoing litigation and urging that 
workers' sides lose.
    It is also becoming harder for workers to report abuses to 
the Department of Labor due to recent immigration raids sowing 
fear in the community, and workers who would like a union to 
protect them don't have one.
    The good news is that we can repaint this bleak picture. 
Any success in moving forward with DOL to improve the response 
in New Orleans will reverberate around the country. DOL can 
make a difference in the wage levels of more than just the 
workplaces it targets, especially by dedicating attention to a 
particular region like New Orleans or a particular job sector.
    I will conclude by highlighting some reforms that DOL, with 
your urging, could implement across the country. Most of these 
the agency needs only to revive, not create out of old cloth, 
because it has already used these strategies successfully in 
the past.
    First--and we have heard this already--target low-wage 
industries with persistent violations, like the construction, 
day labor, and hospitality industries in New Orleans, to start. 
This would entail tracking violations and conducting preemptive 
workplace investigations without waiting for workers to 
complain.
    DOL could target violations by employers who seek to hide 
behind subcontractors or who call their workers independent 
contractors. DOL could target these employers by keeping data, 
as we mentioned earlier, on worker complaints that DOL chooses 
not to enforce, as well as data on enforcement efforts and 
outcomes.
    DOL can do this by actively partnering with community 
groups who are the eyes and ears of the problems in order to 
learn of the worst abuses and assist in enforcement and fact 
gathering. DOL should share information with other agencies in 
DOL, like OSHA, and it could also share with the State 
Unemployment Insurance Agencies who target independent 
contractor abuses.
    DOL should provide workers' rights information in foreign 
languages and hire bilingual investigators.
    It should allow workers file claims anonymously.
    It should encourage witnesses to come forward by fully 
enforcing its own firewall policy of not sharing information 
with ICE so that immigrant workers aren't afraid to come 
forward.
    It should use its hot goods power that permits it to seize 
goods that are produced in substandard conditions.
    And for complaints it cannot handle, DOL should refer 
workers to a private panel of attorneys or clinics available in 
the communities.
    All of these reforms are reasonable, possible, and 
necessary. They could be implemented with little effort by DOL 
and with much impact on our country's workers, our law-abiding 
employers who are unable to compete, and our economy.
    Thank you.
    [The prepared statement of Ms. Ruckelshaus follows:]

    [GRAPHIC] [TIFF OMITTED] T1702.161
    
    [GRAPHIC] [TIFF OMITTED] T1702.162
    
    [GRAPHIC] [TIFF OMITTED] T1702.163
    
    [GRAPHIC] [TIFF OMITTED] T1702.164
    
    [GRAPHIC] [TIFF OMITTED] T1702.165
    
    [GRAPHIC] [TIFF OMITTED] T1702.166
    
    [GRAPHIC] [TIFF OMITTED] T1702.167
    
    [GRAPHIC] [TIFF OMITTED] T1702.168
    
    [GRAPHIC] [TIFF OMITTED] T1702.169
    
    [GRAPHIC] [TIFF OMITTED] T1702.170
    
    [GRAPHIC] [TIFF OMITTED] T1702.171
    
    [GRAPHIC] [TIFF OMITTED] T1702.172
    
    [GRAPHIC] [TIFF OMITTED] T1702.173
    
    [GRAPHIC] [TIFF OMITTED] T1702.174
    
    [GRAPHIC] [TIFF OMITTED] T1702.175
    
    [GRAPHIC] [TIFF OMITTED] T1702.176
    
    [GRAPHIC] [TIFF OMITTED] T1702.177
    
    [GRAPHIC] [TIFF OMITTED] T1702.178
    
    [GRAPHIC] [TIFF OMITTED] T1702.179
    
    [GRAPHIC] [TIFF OMITTED] T1702.180
    
    [GRAPHIC] [TIFF OMITTED] T1702.181
    
    Mr. Kucinich. Thank you for your testimony. We are now 
going to go to questions of the panel. Again, thank you both 
for being here.
    We will begin with Ms. Washington. Thank you for your 
commitment to people. When you raise the questions about how 
people are being manipulated, set against each other, I was 
thinking about some hearings that we have held in the past 
about how all this billions of dollars of construction is going 
on in Baghdad and that area, and not Iraqis can't get jobs. It 
is an interesting symmetry in terms of policy of this 
reconstruction, so to speak.
    Do you believe that the lack of enforcement contributed to 
low wages?
    Ms. Washington. It is the lack of enforcement and failure 
to take a proactive stance. I mean, we saw the hurricane. We 
saw the devastation. We knew from the perspective of the 
Federal Government just how much manpower, money, and, you 
know, workers were needed in the first couple of months.
    I was in Beaumont, for example, and in Austin, and, you 
know, we all saw the ads. ``Go to New Orleans. Do the cleanups. 
Make $15 an hour.'' So they were all over the Internet.
    I would just think, as a person who has been practicing 
labor and employment law, who has dealt with the Department of 
Labor, I would think, jeez, that is where I need to be, because 
if I know there is an influx of all of these workers, I had 
better make sure that these employers, Mr. Halli, Ms. Burton, 
handle these people properly, and that is not what was 
happening.
    Mr. Kucinich. Let me ask you something, because it occurs 
to me people would want to go back home if they had a wage they 
could make.
    Ms. Washington. Yes.
    Mr. Kucinich. But if they don't have a wage they can make 
or they can't get a job, are they going to go back home?
    Ms. Washington. You know, the funny thing about New Orleans 
is that we are finding people coming home regardless sometimes, 
you know, and the only way to account for that is that folks 
really desperately want to be back in the city of New Orleans 
and they are taking jobs, be they African American workers who 
are returning or the immigrant workers who are there, sometimes 
taking jobs under really horrendous conditions. I think that is 
what we have to fight against.
    Mr. Kucinich. Did these low wages impact the ability of 
African American workers to return to their homes?
    Ms. Washington. Yes, to the extent that, you know, if you 
don't have anybody to live with, you know, because the cost of 
living is so much higher in the city of New Orleans right now, 
if you don't have a place to stay that you can afford then you 
just can't come home.
    What we have found is that, because many immigrant workers 
aren't bringing their families with them, and they can, you 
know, oftentimes live four, five, six to a room or to a house, 
they are not coming with families that they have to take care 
of, but instead of the ability to send money elsewhere. There 
is just a difference in what folks can tolerate.
    From an advocacy perspective, again I have to say that what 
we do is fight for folks not having to tolerate it at all.
    Mr. Kucinich. Right.
    Ms. Ruckelshaus, given your work on labor issues 
nationally, do you feel the trends within the Department of 
Labor exhibited in New Orleans are unique to the Gulf Coast?
    Ms. Ruckelshaus. No, they are not. As I mentioned in my 
written testimony, New Orleans is an important microcosm, and 
it clearly a very recent and extreme example of the impacts of 
the lack of a public enforcer, but Department of Labor is weak 
all over the country.
    I think one thing that is worth enforcing is that, because 
there is no State law that protects fair pay in Louisiana, 
Mississippi, and Alabama, there is no other option except for 
DOL for those States, so it is a bad situation there because 
there are two other States that have that also, but the Gulf 
Coast States are particularly hard hit.
    Mr. Kucinich. So in those States what do workers stand to 
gain from a more aggressive enforcement model, let's say, in 
those States, you know, like investigations that are part of 
the DOL?
    Ms. Ruckelshaus. Then there might really be a wage floor. 
Maybe the minimum wage will mean something. Maybe there will, 
in fact, be overtime for more than 40 hours in a week.
    I think without the Department of Labor's presence there, 
low-wage worker cases are really difficult to take. Southern 
Poverty Law Center can't do everything. Ms. Washington can't do 
everything. We need the public enforcer out there, and 
employers need to know they are there, because otherwise they 
are just going to continue to violate the law.
    Mr. Kucinich. I think the point that you make about there 
not being State enforcement in these particular areas makes it 
all the more imperative that this subcommittee focuses on the 
Federal enforcement, which is the only game in town at this 
point.
    Ms. Ruckelshaus. Right.
    Mr. Kucinich. So that is why your testimony and Ms. 
Washington's testimony and participation is so important.
    I am going to now go to my colleague for a final set of 
questions here.
    Ms. Watson. Before the hurricane, did the State have its 
Department of Labor and its own labor standards and laws?
    Ms. Ruckelshaus. No. There is a State agency that looks at 
payday laws. If you don't get paid on time in Louisiana that is 
against the law. But there is no State Minimum Wage Act in 
Louisiana, so there is no requirement----
    Ms. Watson. Well, I am not necessarily looking at the 
wages, but, I mean, the standard circulations, licensing, etc., 
is there any State agency that does that?
    Ms. Ruckelshaus. If there is a law on the books in 
Louisiana or Mississippi that requires licensing, there would 
be a public agency to enforce that, but there aren't any for 
labor standards that we have been talking about today.
    Ms. Watson. Ms. Washington, do you know if there is a 
Department of Labor, State Labor? I see somebody nodding his 
head in the back. If you would like to come up to the mic--Mr. 
Chairman, I would like to call the gentleman who is nodding his 
head as somebody who might have this, because I am trying to 
get my mind around just where we put our efforts.
    Mr. Kucinich. Who are you, madam?
    Ms. Watson. Yes. And I wanted to know if there are any set 
standards at the State level and, if so, what department they 
would be in and how we could go after them, because----
    Mr. Kucinich. If the gentlelady will yield, if there is 
anybody here who could answer that question we would like them 
to come up to the table and be sworn. That is fine.
    Ms. Ruckelshaus. I do know that there are no----
    Mr. Kucinich. Would you like to answer the question?
    Ms. Ruckelshaus. There is no State agency that is in charge 
of enforcing labor standards, the workplace conditions that we 
have been talking about today.
    Ms. Watson. Because I have been watching the whole sort of 
aftermath of Katrina. In fact, we had the mayor out to Los 
Angeles. Of course, we had the Governor here and the mayor 
here, too. I understand the Governor is not running again. 
There was so much frustration, because going up the ladder was 
unclear and the bureaucracy was overbearing, and we saw that we 
argued, some of us, to keep FEMA out of this big, huge umbrella 
group called Homeland Security with 750,000 people transferred 
over to this big umbrella and all these agencies underneath. 
And at a time of crisis to unravel that was impossible. 
Therefore, we lost too many people and too much property and 
too much security among civil society.
    So I see some places, and that is why I mentioned again to 
the Chair that I think we ought to come and we ought to raise 
these questions, and then when we come back maybe we can carry 
a piece of legislation that every single 1 of the 50 States 
must have a department that deals with these labor issues, 
because, you know, we are talking about people's jobs, people's 
welfare, their incomes. It just wiped out a whole segment in 
the Gulf.
    So I see a lot of things wrong, and I think we need to come 
and raise these questions and come back here and see what kind 
of Federal policies we need to have.
    Now, let me just ask one more question now, Mr. Chair.
    This is to Ms. Washington. Do you sense that there is some 
kind of retaliation going on in whatever Department of Labor 
that exists in Louisiana, and do you see discrimination among 
the workers? What is your experience?
    Ms. Washington. I can speak only anecdotally. I think 
anecdotally employees have been treated miserably equally, and 
be it because they have not been able to get back as quickly as 
they want to and/or because when they get back they find out, 
wow, we are getting treated really horribly, just like the 
folks who have been here for the past year doing the same 
doorman, sheet-changing position, you know. That is just 
difficult for me as an advocate who I would like to say prior 
to Hurricane Katrina and in those years where I represented 
employers for years prior to Hurricane Katrina, when we had a 
Department of Labor with investigators that just, you know, 
really hit us, and, you know, it is just nothing now. It is the 
wild, wild west.
    Ms. Watson. Well, I see the red light is on. I do have to 
leave, Mr. Chairman. But in my closing remarks, we have a lot 
of work to do along these lines, because the impact goes right 
to the individual American who was damaged in more ways, and we 
have a whole city that is hurting. New Orleans is not the only 
one. We went all along the Gulf Coast when we were down there, 
and it is town after town after town in Mississippi, Texas, and 
so on.
    Then I saw the shabby response. I mean, it was embarrassing 
with the world view, and was inept with the local view, and you 
say now here the United States of America, and we think we can 
institute democracy around the globe and fight everyone's 
battle, and we can't even tend to the problems right here in 
this country.
    I tend to want to make a difference in that way. I am 
sitting with the chairman who has the greatest sensitivity to 
the needs of all Americans and non-Americans and is out there 
on the campaign trail running for President. I would hope I 
would see in my day a Dennis Kucinich, because he really has a 
people's interest at heart. So I think what we need to do as a 
panel here is take in all this input and then go down there and 
go through the Department and go to the State and see what is 
lacking and put an infrastructure in place so that the system 
can move automatically should we have this kind of tragedy 
again--and we will.
    So thank you very much to the witnesses. I appreciate your 
patience in staying here. It is after 5 now.
    I thank you, Mr. Chairman.
    Mr. Kucinich. I am appreciative of the gentlelady's kind 
remarks and I want to once again, on behalf of the 
subcommittee, thank Ms. Washington and Ms. Ruckelshaus not only 
for participating in this panel, but for your dedication to the 
plight of workers who are all too often easy to ignore because 
they don't have the basic economic power that puts them in a 
position to be able to insist on their rights. This is not a 
small matter that you are here as their voice today.
    We, of course, want to thank the participants in all three 
panels, those who are from the community groups representing 
the New Orleans' workers and their attorneys, and Mr. DeCamp 
and his associates from the Department of Labor.
    This has been a hearing of the Domestic Policy Subcommittee 
of the Government Reform and Oversight Committee. The title of 
today's hearings has been Adequacy of Labor Law Enforcement in 
New Orleans. I am Congressman Dennis Kucinich, Chair of the 
committee, here with my colleague, Ms. Watson of California. We 
want to thank all of you for participating.
    This committee stands adjourned.
    [Whereupon, at 5:05 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T1702.182

[GRAPHIC] [TIFF OMITTED] T1702.183

[GRAPHIC] [TIFF OMITTED] T1702.184

[GRAPHIC] [TIFF OMITTED] T1702.185

[GRAPHIC] [TIFF OMITTED] T1702.186

[GRAPHIC] [TIFF OMITTED] T1702.187

[GRAPHIC] [TIFF OMITTED] T1702.188

[GRAPHIC] [TIFF OMITTED] T1702.189

[GRAPHIC] [TIFF OMITTED] T1702.190

[GRAPHIC] [TIFF OMITTED] T1702.191

[GRAPHIC] [TIFF OMITTED] T1702.192

[GRAPHIC] [TIFF OMITTED] T1702.193

[GRAPHIC] [TIFF OMITTED] T1702.194

                                 <all>

</pre></body></html>
